<html>
<title> - CONCUSSIONS IN YOUTH SPORTS: EVALUATING PREVENTION AND RESEARCH</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    CONCUSSIONS IN YOUTH SPORTS: EVALUATING PREVENTION AND RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2016

                               __________

                           Serial No. 114-145
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                    
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
21-158 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 7_____

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
DAVID B. McKINLEY, West Virginia     DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
LARRY BUCSHON, Indiana               JOHN A. YARMUTH, Kentucky
BILL FLORES, Texas                   YVETTE D. CLARKE, New York
SUSAN W. BROOKS, Indiana             JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       GENE GREEN, Texas
CHRIS COLLINS, New York              PETER WELCH, Vermont
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     4
Hon. Richard Hudson, a Representative in Congress from the State 
  of North Carolina, opening statement...........................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Fred Upton, a Representative in Congress from the State of 
  Fred Upton, prepared statement.................................   161

                               Witnesses

Kelli Jantz, Mother of Jake Snakenberg and Concussion Awareness 
  Advocate.......................................................    10
    Prepared statement...........................................    13
Karen Kinzle Zegel, Mother of Patrick Risha and Chronic Traumatic 
  Encephalopathy (CTE) Awareness Advocate........................    18
    Prepared statement...........................................    20
Eugene F. (Buddy) Teevens, III, Head Football Coach, Dartmouth 
  College........................................................    29
    Prepared statement...........................................    32
Andrew Gregory, M.D., Medical Advisory Committee Member, USA 
  Football, and Associate Professor of Orthopedics, Neurosurgery 
  and Pediatrics, Vanderbilt University Medical Center...........    35
    Prepared statement...........................................    37
    Additional information submitted for the record..............    51
Kevin Margarucci, Manager, Player Safety, USA Hockey.............    61
    Prepared statement...........................................    63
Steve Stenersen, CEO, US Lacrosse................................    76
    Prepared statement...........................................    78
Terry O'Neil, Founder/CEO, Practice Like Pros....................    89
    Prepared statement...........................................    91
R. Dawn Comstock, Ph.D., Associate Professor, Department of 
  Epidemiology, Colorado School of Public Health.................   102
    Prepared statement...........................................   104
Thomas M. Talavage, Ph.D., Professor of Electrical and Computer 
  Engineering, Weldon School of Biomedical Engineering, Purdue 
  University.....................................................   122
    Prepared statement...........................................   124

                           Submitted Material

Subcommittee memorandum..........................................   162
Brochure, ``REAP The Benefits of Good Concussion Management,'' 
  Rocky Mountain Hospital for Children at Presbyterian/St. 
  Luke's, submitted by Ms. DeGette...............................   169
Brochure, ``Flag Until 14,'' Patrick Risha CTE Awareness 
  Foundation, submitted by Ms. DeGette...........................   189
Report, ``Sports-Related Concussions in Youth: Improving the 
  Science, Changing the Culture,'' Institute of Medicine and 
  National Research Council of the National Academies, \1\ 
  submitted by Mr. Hudson

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF02/
  20160513/104914/HHRG-114-IF02-20160513-SD099.pdf.

 
    CONCUSSIONS IN YOUTH SPORTS: EVALUATING PREVENTION AND RESEARCH

                              ----------                              


                          FRIDAY, MAY 13, 2016

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
room 2123, Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, McKinley, Burgess, 
Griffith, Bucshon, Hudson, Collins, Cramer, DeGette, 
Schakowsky, Castor, Tonko, Yarmuth, Clarke, Green, Welch, and 
Pallone (ex officio).
    Staff present: Leighton Brown, Deputy Press Secretary; 
Rebecca Card, Assistant Press Secretary; Jay Gulshen, Staff 
Assistant; Kelsey Guyselman, Counsel, Communications and 
Technology; Brittany Havens, Legislative Associate, Oversight; 
Charles Ingebretson, Chief Counsel, Oversight and 
Investigations; John Ohly, Professional Staff Member, Oversight 
and Investigations; Chris Santini, Policy Coordinator, 
Oversight and Investigations; Gregory Watson, Legislative 
Clerk; Jeff Carroll, Democratic Staff Director; Ryan 
Gottschall, Democratic GAO Detailee; Tiffany Guarascio, 
Democratic Deputy Staff Director and Chief Health Advisor; 
Christopher Knauer, Democratic Oversight Staff Director; Ukna 
Lee, Democratic Chief Oversight Counsel; Elizabeth Letter, 
Democratic Professional Staff Member; Matt Schumacher, 
Democratic Press Assistant; and Andrew Souvall, Democratic 
Director of Communications, Outreach, and Member Services.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning, and welcome to the Oversight and 
Investigations hearing. We are here today to continue the 
committee's ongoing examination of concussions. This hearing 
follows an initial roundtable we had in March where we had a 
constructive dialogue with leading experts in the field about 
how to address the challenge of concussions.
    Today's hearing will focus on youth sports, specifically 
the areas of prevention and research.
    While there's always some risk of injury participating in 
sports, particularly at a young age, it is shown to have many 
benefits. The benefit of youth sports participation include 
better health through increased activity, improved academic 
achievement, physical skill building and social development, to 
name a few.
    I might add that the number one health risk of youth is 
increasing rate epidemic proportion of child obesity. We know 
that that leads to increased adult risk for diabetes, 
cardiovascular disease, and all sorts of other problems. So we 
want children to pay careful attention to their nutrition and 
be active.
    While the estimates suggest that more than 30 million 
children, ages 5 to 18, participate in organized sports each 
year, and that despite this being the largest population of 
athletes, this group is one of the most underserved populations 
when it comes to the level of awareness, prevention, and 
research related to head injuries, which brings us to our task 
for today.
    We want to examine what is being done today to reduce the 
instance of head injuries to young athletes, what policies and 
guidelines are currently in place to limit their risk of 
injury? How are these policies developed? And do they go far 
enough, what educational and training policies exist for 
athletes, coaches, and parents? How does the large number of 
disparate leagues, teams, clubs, and recreational opportunities 
available to young athletes complicate efforts to improve 
injury prevention?
    While youth sports are not nearly as far along as many 
professional leagues, progress has made in recent years. All 50 
States and the District of Columbia have enacted concussion 
laws and some youth sports, organizations, and leagues, such as 
Pop Warner Football, USA Hockey, U.S. Soccer, to name a few, 
have implemented policies to reduce the amount of head contact 
in practice and games. Others, such as USA Football, provide 
education and guidance to enhance training and awareness for 
coaches, parents, and athletes. A number of these groups are 
represented here today, and I look forward to hearing how their 
efforts are affecting their sports.
    Based on their experience thus far, are we doing enough, 
and what does the science tell us? The last question is 
particularly interesting and important. There's a lot we do not 
know about concussions generally, but pediatric populations, 
including youth sports, are severely underrepresented in 
assisting research, and therein lays the challenge.
    The public wants answers that science is not ready to 
provide. We have much to learn how concussions and repetitive 
head injuries affect younger individuals, both immediately as 
well as later in life. Therefore, I'm interested to learn how 
youth sports, organizations develop, review, and update their 
policies, guidance or educational efforts in light of the 
limited but rapidly evolving research about concussions.
    We don't know how traumatic brain injury affects our youth, 
and it makes that much more challenging to protect them. Adding 
to the challenge, we currently lack any form of protective 
injury surveillance, including concussions for athletes younger 
than high school age. Given the large number of athletes, 
teams, leagues, and other recreational opportunities, this is a 
daunting task. But if we do not understand the magnitude of the 
challenge, how different factors such as age, gender, sports, 
socioeconomic status, et cetera, influence outcomes, how can we 
be sure we are making the best decision for our kids?
    This morning on our first panel, we are joined by two 
mothers; Ms. Kelly Jantz and Ms. Karen Zegal, both of whom 
tragically lost their son as a result of injuries sustained 
while playing youth sports. Ms. Jantz' son, Jake, was a 
promising freshman athlete at Grandview High School in Aurora, 
Colorado, and is the namesake of Colorado's Jake Snakenberg 
Youth Concussion Act. While Ms. Zegel's son, Patrick Risha, was 
a star running back at Elizabeth Forward High School in my 
district and played football from the moment he could pick up a 
ball. We greatly appreciate your willingness to share your 
stories as it reminds us why it is so vital that we continue to 
examine this issue.
    Later on our second panel, we will have Dartmouth's head 
football coach, Buddy Teevens, and representatives from some of 
the sports organizations, USA Football, USA Hockey, and U.S. 
Lacrosse that oversee or provide guidance to U.S. sports 
leagues. We will also hear from practice life pros to learn 
more about additional options to keeping athletes safe.
    Additionally, we have prominent researchers in the field. 
They will be able to speak to how we can approve research and 
surveillance, better monitor injuries, and minimize the risk of 
injury based upon science.
    I appreciate all of our panels for joining us this morning. 
This is an important issue, and your perspectives are important 
to advance the public dialogue on these complex injuries.
    I also want to thank Ranking Member DeGette for her support 
in this initiative and look forward to continuing our efforts 
together in this endeavor.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    We are here today to continue the committee's ongoing 
examination of concussions. This hearing follows an initial 
roundtable that we had in March, where we had a constructive 
dialogue with leading experts in the field about how to address 
the challenge of concussions. Today's hearing will focus on 
youth sports, specifically areas of prevention and research.
    While there is always some risk of injury, participating in 
sports, particularly at a young age, has shown to have many 
benefits. The benefits of youth sports participation include 
better health through increased activity, improved academic 
achievement, physical skill-building, and social development, 
to name a few.
    Estimates suggest that more than 30 million children, ages 
5 to 18, participate in organized sports each year. Despite 
this being the largest population of athletes, this group is 
one of the most underserved populations when it comes to the 
level of awareness, prevention and research related to head 
injuries.
    This brings us to our task for today. We want to examine 
what is being done today to reduce the incidence of head 
injuries in young athletes. What policies and guidelines are 
currently in place to limit the risk of injury? How are these 
policies developed and do they go far enough? What educational 
and training policies exist for athletes, coaches, and parents? 
How does the large number of disparate leagues, teams, clubs 
and reactional opportunities available to young athletes 
complicate efforts to improve injury prevention?
    While youth sports are not nearly as far along as many 
professional leagues, progress has been made in recent years. 
All 50 States and the District of Columbia have enacted 
concussion laws and some youth sports organizations and 
leagues--such as Pop Warner Football, USA Hockey, US Soccer, to 
name a few--have implemented policies to reduce the amount of 
head contact in practices and games. Others--such as USA 
Football--provide education and guidance to enhance training 
and awareness for coaches, parents, and athletes. A number of 
these groups are represented here today and I look forward to 
hearing how their efforts are affecting the safety of their 
respective sports. Based on their experience, thus far, are we 
doing enough? What does the science tell us?
    This last question is particularly interesting and 
important. There is a lot we do not know about concussions, 
generally, but pediatric populations, including youth sports, 
are severely underrepresented in existing research. And therein 
lays the challenge--the public wants answers that the science 
is not ready to provide. We have much to learn about how 
concussions and repetitive head injuries affect younger 
individuals, both immediately as well as later in life. 
Therefore, I am interested to learn more how youth sports 
organizations develop, review, and update their policies, 
guidance, or educational efforts in light of the limited, but 
rapidly evolving, research on concussions. If we don't know how 
traumatic brain injury affects our youth, it makes it that much 
more challenging to protect them.
    Adding to the challenge, we currently lack any form of 
effective injury surveillance, including concussions, for 
athletes younger than high school age. Given the large number 
of athletes, teams, leagues, and other recreational 
opportunities, this is a daunting task. But if we do not 
understand the magnitude of the challenge, how different 
factors--such as age, gender, sport, socioeconomic status, 
etc.--influence outcomes, how can we ensure we are making the 
best decisions for our kids?
    This morning on our first panel, we are joined by two 
mothers--Ms. Kelli Jantz and Ms. Karen Zegel--both of whom 
tragically lost their sons as a result of injuries sustained 
while playing youth sports. Ms. Jantz's son, Jake, was a 
promising freshman athlete at Grandview High School in Aurora, 
Colorado and is the namesake of Colorado's ``Jake Snakenberg 
Youth Concussion Act.'' While Ms. Zegel's son, Patrick Risha, 
was a star running back at Elizabeth Forward High School, in my 
district, and played football from the moment he could pick up 
a ball. We greatly appreciate their willingness to share their 
stories, as it reminds us why it is so vital that we continue 
to examine this issue.
    Later, on our second panel we will have Dartmouth's Head 
Football Coach, Buddy Teevens, and representatives from some of 
the sports organizations--USA Football, USA Hockey, and US 
Lacrosse--that oversee or provide guidance to youth sports 
leagues. We will also hear from Practice Like Pros to learn 
more about additional options for keeping athletes safe. 
Additionally we have prominent researchers in this field that 
will be able to speak to how we can improve research and 
surveillance, better monitor injuries, and minimize the risk of 
injury based on the science.
    I appreciate all of our panelists for joining us this 
morning. This is an important issue and your perspectives are 
important to advancing the public dialogue on these complex 
injuries.
    I also would like to thank Ranking Member DeGette for her 
support on this initiative and look forward to continuing our 
efforts on this endeavor. I now recognize the Ranking Member 
for 5 minutes to deliver her own remarks.

    Mr. Murphy. So I now recognize the ranking member for 5 
minutes to deliver her own remarks.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you so much, Mr. Chairman, for having 
this follow-up hearing on our roundtable that we held on 
concussions and brain trauma earlier this year. I am very 
pleased that we are looking, first, at youth sports through 
official hearings, because studies have shown that children and 
teens are more likely than adults to get a concussion, and they 
take longer to recover.
    Athletes at the professional college levels, they can make 
their own decisions about undertaking the risks associated with 
certain sports, but we need to ensure that children and their 
parents have enough data to make informed decisions about 
participation in youth contact sports. Part of that discussion 
needs to be the recognition of how valuable these sports are, 
both for physical fitness and team building, as you so well 
stated, Mr. Chairman. But I think we also need to have an open 
discussion about how to make them safer.
    I approach this issue, both as a policymaker and a parent. 
And as I said in the roundtable, I support evidenced-based 
policy making and am very encouraged that we are having ongoing 
research to better understand brain trauma. But at our 
roundtable, the experts said that they are going to have 
answers about what the protocol should be in 7 to 10 years. And 
what I said at that hearing is, as a mom, when I'm deciding if 
my kid is going to play Pee Wee sports, I can't afford to wait 
7 to 10 years. By then, they will be in high school, and so we 
need to take whatever evidence that we have right now, and we 
need to figure out for now what we should tell the parents and 
what we should tell leagues that they should be doing as the 
best practices as far as we know right now.
    For example, at what age should children start playing 
tackle football? How many times a week should children be 
engaging in full contact practices? And when they do begin to 
play, how do we teach them to tackle safely and to protect 
their heads and the heads of other players? And how do we 
ensure that coaches are educated in teaching these skills to 
young players? I'm sure that we can ask other questions in all 
youth sports, not just football.
    I agree that most, if not all parents, would agree that it 
is better to err on the side of caution. The worst-case 
scenario would be that we discover later, that some of these 
safety measures may have been unnecessary. But as a mom, I 
always want to have more safety rather than less safety, 
especially when you're talking about our children's brains.
    Now, as we implement changes in sports now, this is not a 
reason to stop researching our gaps in knowledge. We need to 
understand the long-term effects of concussive and 
subconcussive injuries; we need to analyze whether the rule 
changes being implemented are having the desired effects; we 
need to study how to prevent brain injury in the first place.
    I also am interested from hearing in our witnesses on the 
second panel about the differences they are seeing in girls and 
boys sports and how the rates of concussion differ. I know that 
there have been studies suggesting that women and girls report 
concussions at higher rates than men and boys in similar 
sports. I want to know about that disparity, and also if 
there's any disparity about the actual effects on brains.
    Both of our panels contain excellent witnesses, and it's so 
important to have them today. I'm really proud to welcome two 
witnesses from Colorado. Kelly Jantz, as you heard, tragically 
lost her son Jake to second impact syndrome in 2004.
    And, Kelly, I'm so proud of you, because what you did is 
you were instrumental in ensuring that concussions are taken 
seriously in youth sports, and that parents and coaches have 
the information they need. As the chairman mentioned, in 2012, 
Governor Hickenlooper signed the Jake Snakenberg Youth Sports 
Concussion Act into law in Colorado, and we're really proud 
that you've taken his legacy to that. We really are.
    Dr. Dawn Comstock is on our second panel. She's from the 
Colorado School of Public Health. And like me, a Colorado 
native. She's one of the leading experts in sports injury 
epidemiology. Her database gathers information on injury 
exposure and incidents among high school athletes. She looks at 
injury patterns like examining the correlation between neck 
strength and concussion risk to inform prevention and 
mitigation strategies. And so I want to thank you, also, Dr. 
Comstock, for making youth sports safer.
    I want to thank everybody who is here today to help us 
figure this out. And I also really want to say, we want to see 
sports succeed. I can't let this hearing go by without 
congratulating the world champion Denver Broncos, for example, 
which I have season tickets. And I also want to say, as I said 
before, one of my great sadnesses is that I was unable to 
persuade either of my daughters to play ice hockey, and they 
took up dance instead.
    But the point is, all--every child in this country should 
be safe. We love sports. We want to see sports succeed, but 
that means that we have to do our utmost to improve player 
safety and guarantee that participation in sports doesn't mean 
that you have long-term health consequences.
    So I know, Mr. Chairman, you intend to have more hearings. 
I think this is the perfect place to start. I want to thank you 
again, and yield back.
    Mr. Murphy. Thank you. Go Steelers.
    Of course, right now the Penguins are in the playoffs. We 
wish them the best, too, and all athletes.
    I now am going to recognize--first of all, I want to say 
the opening statement of Mr. Upton will be included in the 
record. He could not be with us this morning.
    [The prepared statement of Mr. Upton appears at the 
conclusion of the hearing.]
    Mr. Murphy. But we're going to recognize Mr. Hudson for an 
opening statement.

 OPENING STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Hudson. Thank you, Mr. Chairman. I thank you, Chairman 
Murphy and Ranking Member DeGette, for your focus on this 
issue. Even as painful as it is to hear Representative DeGette 
talk about the Broncos, so I want to represent Charlotte, North 
Carolina, home of the Carolina Panthers. There's always next 
year.
    I would like to thank the panelists for your important 
testimony today. Your experiences and expertise help the 
committee better understand the gravity of concussions in youth 
sports and what we need to do to prevent concussions and the 
long-lasting effects for future generations.
    Unfortunately, pediatric trauma, which concussions and 
traumatic brain injury is a part of, is the number-one killer 
of kids. Pediatric trauma has become a particular focus of 
mine. I've been fortunate to have the Childress Institute for 
Pediatric Trauma partner with me in examining what we can do to 
help our children live long, fulfilling lives. Childress 
Institute was started by my dear friend, Richard Childress' 
wife Judy, with the goal of discovering and sharing in the best 
ways to prevent and treat severe injuries in children. The 
Childress Institute supports a number of pediatric research 
programs, including the Concussive Care Fund, which funds 
initiatives prevent and treat injuries in youth and 
recreational sports. The promising research being done to 
prevent and treat trauma not only broadly, but also on specific 
issues like concussions, takes on particular importance to me 
as a father of a 7-month-old baby boy. I'm thankful so much 
awareness is being brought to this issue by discussions like 
today.
    As one trauma surgeon said to me, it's not a life saved; 
it's a lifetime saved. And I want to also note that my fellow 
North Carolina Representative, G.K. Butterfield and I are 
hosting a pediatric trauma briefing with the Energy and 
Commerce Committee on Tuesday, May 24th. I would encourage 
anyone who is interested to please attend, and I look forward 
to today's discussion.
    With that, Mr. Chairman, I yield back.
    Mr. Murphy. Is there anybody else on our side who have 
anything they want to add at this point?
    Then I now recognize the ranking member, Mr. Pallone, for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    And I want to thank all of our participants for joining us 
today. Additionally, I would like to thank the chairman for his 
commitment to this committee's examination of concussions and 
brain trauma. Earlier this year, we had an initial roundtable 
on this issue, and at the time I requested to Chairman Upton 
that we hold a series of hearings on concussions and sports-
related head trauma. I propose that we start with an 
examination of head impacts in youth sports, and I'm gratified 
that we are here today to discuss this very topic and look 
forward to the additional hearings on this important issue.
    Parents across the country are concerned about the risk of 
concussions, and with good reason. I have my own experience as 
a parent in dealing with my daughter's concussion and 
deciphering the medical advice provided. It's challenging as a 
parent to balance the news stories and the results of the 
latest research against the value of our children's 
participation in sports, and I can certainly relate to parents' 
concerns and their confusion about how to make the right 
decisions for their children.
    And there is compelling research to suggest that the 
effects of repeated head trauma, even those received during 
one's youth, can accumulate and cause serious consequences, and 
these consequences can stem from injuries once considered minor 
known as subconcussive hits, or repetitive hits to the head. 
Purdue University Research is led by one of our witnesses 
today, Dr. Tom Talavage, found significant structural changes 
to the brains of high school football players, even among those 
who were not diagnosed with a single concussion. And what is 
particularly troubling is that these changes persist at even 12 
months later, suggesting lasting damage. Many other studies 
have documented an association between subconcussive hits and 
changes in brain chemistry, decreased brain functioning, and 
behavioral changes. A recent study by a group of researchers at 
Boston University found that exposure to hits, regardless of 
whether a concussion occurred, is Associated with a higher 
likelihood of mood disorders, like depression. Researchers have 
also repeatedly found evidence of the linkage between head 
impacts and CTE, a devastating degenerative brain disease.
    CTE has been found in former athletes as young as 25 years 
old and in adults who never played football beyond the high 
school level. And there remain a number of unanswered questions 
about what risk factors make individuals more susceptible to 
these debilitating conditions. We also need to understand what 
happens in the brain when it's hit, and how many hits trigger 
these neurological effects. And while there is still research 
that needs to be done, that should not be an excuse for 
inaction. What is not in dispute is the association between 
head trauma from contact sports, such as football, and lasting 
brain damage in degenerative decisions, such CTE. Even the NFL 
publicly acknowledged this link at this committee's roundtable 
back in March.
    Some researchers in this field suggest that we should, 
quote, ``wait on the science before making changes to the rules 
of youth sports.'' And I respectfully disagree. We cannot ask 
children and their parents to wait 10, 15, or 20 years for the 
science to catch up before we take measures to make sports 
safer. We need to be asking questions right now and 
implementing the appropriate rule changes.
    The science has raised enough red flags about the dangers 
of repetitive head trauma that I think it is incumbent upon 
those who organize and promote youth contact sports to take 
every effort to make the games as safe as possible. And earlier 
this month, the subcommittee ranking member, Ms. DeGette, Mr. 
Green, and Ms. Schakowsky joined me in sending letters to 
collegiate and youth football leaders. We asked them to explain 
what rule or policy changes they are considering to address the 
risks associated with both concussive and subconcussive hits. 
And I expect that we will have a response by May 25th. And I 
commend Pop Warner for announcing yesterday that it would ban 
kickoffs in games starting this fall.
    I also look forward to hearing today from other youth 
sports organizations about what they are doing for their 
individual sports, and whether additional measures need to be 
considered.
    And last, Mr. Chairman, I want to express my deep thanks to 
both Kelly Jantz and Karen Zegel for joining us today. I can't 
even imagine the losses you and your families have experienced.
    Thank you for your willingness to share your experiences 
with this committee. We can learn from you as we pave a path 
forward to better protect our kids. And thank you, again, to 
all our witnesses for their contribution and for helping us 
with our comprehensive review of concussions and head trauma.
    I hope we can all continue to work together to find the 
best ways to address this significant public health issue to 
protect our children. I yield back.
    [The prepared statement of Mr. Pallone follows:]

                Prepared statement of Hon. Frank Pallone

    I want to thank all of our participants for joining us 
today. Additionally, I'd like to thank the chairman for his 
commitment to this committee's examination of concussions and 
brain trauma.
    Earlier this year, we had an initial roundtable on this 
issue, and at the time, I requested to Chairman Upton that we 
hold a series of hearings on concussions and sports-related 
head trauma. I proposed that we start with an examination of 
head impacts in youth sports. I am gratified that we are here 
today to discuss this very topic, and I look forward to 
additional hearings on this important issue.
    Parents across the country are concerned about the risks of 
concussions, and with good reason. I have my own experience as 
a parent in dealing with a child's concussion and deciphering 
the medical advice provided. It is challenging as a parent to 
balance the news stories and the results of the latest research 
against the value of our children's participation in sports. I 
can certainly relate to parents' concerns and their confusion 
about how to make the right decisions for their children.
    There is compelling research to suggest that the effects of 
repeated head trauma--even those received during one's youth--
can accumulate and cause serious consequences. And these 
consequences can stem from injuries once considered minor, 
known as subconcussive hits, or repetitive hits to the head.
    Purdue University researchers, led by one of our witnesses 
today, Dr. Tom Talavage, found significant structural changes 
to the brains of high school football players, even among those 
who were not diagnosed with a single concussion. What is 
particularly troubling is that these changes persisted even 12 
months later, suggesting lasting damage.
    Many other studies have documented an association between 
subconcussive hits and changes in brain chemistry, decreased 
brain functioning, and behavioral changes. A recent study by a 
group of researchers at Boston University found that exposure 
to hits, regardless of whether a concussion occurred, is 
associated with a higher likelihood of mood disorders like 
depression.
    Researchers have also repeatedly found evidence of a 
linkage between head impacts and CTE, a devastating 
degenerative brain disease. CTE has been found in former 
athletes as young as 25 years old and in adults who never 
played football beyond the high school level.
    There remain a number of unanswered questions about what 
risk factors make individuals more susceptible to these 
debilitating conditions. We also need to understand what 
happens in the brain when it's hit, and how many hits trigger 
these neurological effects.
    While there is still research that needs to be done, that 
should not be an excuse for inaction. What is not in dispute is 
the association between head trauma from contact sports, such 
as football, and lasting brain damage and degenerative 
diseases, such as CTE. Even the NFL publicly acknowledged this 
link at this committee's roundtable back in March.
    Some researchers in this field suggest that we should 
``wait on the science'' before making changes to the rules of 
youth sports. I respectfully disagree. We cannot ask children 
and their parents to wait 10, 15, or 20 years for the science 
to catch up before we take measures to make sports safer.
    We need to be asking questions right now and implementing 
the appropriate rule changes.
    The science has raised enough red flags about the dangers 
of repetitive head trauma that I think it is incumbent upon 
those who organize and promote youth contact sports to take 
every effort to make the games as safe as possible.
    Earlier this month, subcommittee Ranking Members DeGette, 
Green, and Schakowsky joined me in sending letters to 
collegiate and youth football leaders. We asked them to explain 
what rule or policy changes they are considering to address the 
risks associated with both concussive and subconcussive hits. I 
expect that they will respond to us by May 25th. And I commend 
Pop Warner for announcing yesterday that it would ban kickoffs 
in games starting this fall. I also look forward to hearing 
today from the other youth sports organizations about what they 
are each doing for their individual sports, and whether 
additional measures need to be considered.
    Last, I want to express my deep thanks to both Kelli Jantz 
and Karen Zegel for joining us today. I cannot even imagine the 
losses you and your families have experienced. Thank you for 
your willingness to share your experiences with this committee. 
We can learn from you as we pave a path forward to better 
protect our kids.
    Thank you again to all of our witnesses for your 
contributions and for helping us with our comprehensive review 
of concussions and head trauma. I hope we can all continue to 
work together to find the best ways to address this significant 
public health issue to protect our children.

    Mr. Murphy. The gentleman yields back. I ask unanimous 
consent that Members' opening statements be introduced in the 
record.
    And, without objection, the documents will be entered into 
the record.
    Now, I would like to introduce the witnesses for our first 
panel for today's hearing. We are going to try to get through 
their testimony before votes.
    The first witness on today's panel is Ms. Kelly Jantz. Ms. 
Jantz, the mother of Jake Snakenberg. Jake passed away after 
suffering from second impact syndrome. Following her son's 
death, Ms. Jantz has become a dedicated activist, committed to 
raising awareness of concussions in youth sports. We thank Ms. 
Jantz for preparing her testimony and look forward to her 
insights on these matters.
    I also want to welcome Ms. Karen Zegel. Ms. Zegel is the 
president of the Patrick Risha CTE Awareness Foundation. The 
Foundation was created in memory of her son, Patrick Risha, who 
I enjoyed reading about during his football career. He passed 
away after suffering from CTE.
    Thank you, Ms. Zegel, for your testimony today. We look 
forward to your comments.
    So you two are aware that this committee is holding the 
investigative hearing and when doing so has the practice of 
taking testimony under oath.
    Do either of you object to testifying under oath? Seeing no 
objections, the Chair then advises you that under the rules of 
the House and rules of the committee, you are entitled to be 
advised by counsel.
    Do either of you desire to be advised by counsel during 
your testimony today?
    Neither one does. In that case, would you mind, please, 
rising and raise your right hand, and I'll swear you in.
    [Witnesses sworn.]
    Both answered affirmatively, and you are now under oath and 
subject to the penalties set forth in Title 18, section 1001 of 
the United States Code.
    I will ask you each to give a 5-minute summary of your 
written statement. There will be light in front of you which 
will be red when that time is up.
    You can begin, Ms. Jantz. Turn the microphone on and bring 
it very close to you if you don't mind. Thank you.

   STATEMENTS OF KELLI JANTZ, MOTHER OF JAKE SNAKENBERG AND 
 CONCUSSION AWARENESS ADVOCATE; AND KAREN KINZLE ZEGEL, MOTHER 
  OF PATRICK RISHA AND CHRONIC TRAUMATIC ENCEPHALOPATHY (CTE) 
                       AWARENESS ADVOCATE

                    STATEMENT OF KELLI JANTZ

    Ms. Jantz. Chairman Murphy, and Ranking Member DeGette, and 
members of the subcommittee, good morning and thank you for 
this opportunity to provide testimony on the important issue 
regarding youth and youth-related sports concussions.
    I commend you and your colleagues on the work of this 
committee to shed light on this critical issue. My name is 
Kelli Jantz, and I'm the mom to Jake Snakenberg. My son was 
your typical all-American boy, devoted to sports, his friends, 
and our family. Jake was often referred to as our social 
butterfly in our family. He had a big heart and genuinely cared 
for those in his life. He had a joy about him that others could 
not resist. His big brother summed it up best when he said Jake 
drank up life like it was pouring from a fire hose. He gave 110 
percent in everything, especially sports.
    On September 18th, in 2004, Jake got up at 6:15 in the 
morning in anticipation of his freshman football game. He loved 
football and all it offered; the physical challenge, the spirit 
of competition, and probably most of all, the friendships that 
were involved. He was particularly excited about playing in 
this game, because he had been held out of a few practices 
because the week prior, he had suffered an injury where his 
arms and hands went numb and tingly. What he described to us 
sounded like maybe he had tweaked his neck or strained his 
neck. He hadn't lost consciousness; he didn't see stars. You 
wouldn't have associated it with a major type of injury. He 
didn't report to his dad or me and any headaches during the 
week, though his friends had said that after that injury, he 
had complained of some headaches. Regardless of that, he was 
able to return to practices and meet the required number of 
practices to play on the game day.
    In warmups on the 18th, Jake took a really hard hit that 
really appeared to shake him. He noticed me looking on and 
waved me off to let me know he was oK. When the game began and 
he lined up for a play, right before the snap, Jake stumbled 
forward. A whistle was blown, and they called a penalty, and 
flag was thrown. And Jake got up and started to come to the 
sideline, and then stumbled and went down again, and he never 
got back up again. He was unconscious, and 911 was called 
immediately, and a life flight was dispatched to the football 
field. Jake was airlifted to Swedish Medical Center where a 
neurosurgeon advised us that Jake had could suffered a head 
injury, and steps were being taken to decrease the swelling in 
his brain. He told us that Jake may never play football again, 
and would likely have a long recovery. But he followed that 
statement with, if Jake survives this injury. Tragically, Jake 
didn't survive. It was determined that Jake had suffered 
second-impact syndrome, a condition leading to rapid swelling 
of the brain from more than one concussion. It's a phenomenon 
unique to young brains.
    It was likely that Jake had suffered a concussion the 
previous week. Subsequent hits during practice and warmups, 
though not associated with the concussion, had a compounding 
effect and continued to further injury his already compromised 
brain.
    Since Jake's death, I have made it my mission to continue 
to raise awareness of the consequences of concussion in youth 
sports. Following Jake's death, Dr. Karen McAvoy developed the 
REAP Project, which was adopted by a Rocky Mountain hospital 
for children and is made available to the Colorado Department 
of Education. This program deals with all youth concussions, 
regardless of the cause, meaning not just sports-related 
concussions, as any concussion can directly impact a student's 
learning ability.
    I've had the opportunity to support REAP Concussion 
Management Program, which is being adopted by other States 
through helping distribute the REAP manuals funded by the Jake 
Snakenberg Memorial Fund.
    Looking at the wealth of research on the consequences of 
youth concussion and the rapidly evolving advances in 
concussion management, we would be remiss and, actually, it 
would be irresponsible not to take every possible opportunity 
to develop measures to protect our youth from the devastating 
disabilities and potential death resulting from these types of 
injuries.
    To help--excuse me. I think, actually, in closing, these 
children are our future, and it's our responsibility as parents 
and coaches, teachers, medical professionals, policymakers, and 
the community as a whole to make sure we do all we can to 
support the necessary culture change to make youth sports as 
safe as possible, and protect our children as well as to 
provide appropriate treatment and assistance should a 
concussion occur.
    I want to thank you, again, for addressing this critical 
issue and allowing me to participate in the hearing today.
    Mr. Murphy. Thank you.
    [The prepared statement of Ms. Jantz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Ms. Zegel, you can go for 5 minutes. Thank you.

                STATEMENT OF KAREN KINZLE ZEGEL

    Ms. Zegel. Chairman Murphy, Ranking Member DeGette, and 
members of the committee, thank you so much for inviting me to 
speak today. My son, Patrick Risha, was a hometown hero in high 
school football. I'm going to cry.
    He grew up in an area that measured the worth of a man by 
his prowess and heart on the football field. He started just 
south of Pittsburgh, and with the Elizabeth Forward Youth 
Leagues when he was 10 years old. He was not gifted with size 
or speed, but nonetheless, worked hard to become a great player 
and through that, achieved his dream to go to an Ivy League 
school. It is that work ethic and perseverance in a collision 
sport that ultimately killed him.
    Patrick took his own life at the age of 32, but actually, 
we have come to know CTE took his life. Patrick never played in 
the NFL. Patrick was like millions of children before and after 
him that just played for fun and success in life. But 
throughout high school, prep school, and Dartmouth College, our 
sweet, tough, young running back received enough subconcussive 
blows to his head to essentially seal his fate. When he died, a 
newscaster friend of the family suggested he might have CTE. I 
had never heard of CTE before. I've had heard about NFL players 
having brain injuries and concussions, but I never dreamed it 
could affect a player at the college level.
    When Patrick's autopsy revealed he had widespread CTE, I 
was in shock and horror. How many other players like Patrick 
are there out there? How many other families are dealing with a 
loved one gradually becoming unwired, with no clue what is 
happening? Not every grieving family has a newscaster friend 
saying the words CTE.
    For the sake of American families, this has to change. And 
we are grateful this committee is conducting this hearing to 
learn more about the disease, and the impact on families and on 
our society.
    Personally, I worried about Patrick becoming paralyzed, but 
I thought the chances were extremely small, and I thought he 
had so much to gain from playing.
    If I had known the repeated tackles my son endured were 
slowly killing him, I would have stopped it. No family wants 
their child to suffer a disease that causes him to lose his 
mind slowly, and with such anxiety and loneliness. Yet, every 
day, parents are signing their kids up for youth collision 
sports. These parents don't understand the horror they may face 
with their child. Parents need to be told the truth.
    The human brain is much more fragile than we ever imagined. 
The brain doesn't heal the way skin and bones do. Traumas could 
be very well permanent. For thousands of years, men have fought 
in arenas for sports and entertainment. Somehow we seem to have 
evolved to a point where we're now willing to put children into 
arenas to tackle each other for sport. We put them in the 
equivalent of cheap Halloween costumes to emulate their NFL 
heroes. We ask them to be tough little warriors. That's what 
our family did, and we were so proud when Patrick carried his 
team to victory.
    Sadly, we lost an amazing young man before he ever had the 
chance to live his life, and gifted and promising young 
children like Patrick all over this land are winning battles on 
the sports field, but sadly losing their chances for a happy, 
healthy, productive future.
    Patrick's tragic end was not an isolated incident. Parents 
need to know that one in three players may develop CTE. 
Soldiers coming home and ex-amateur collision athletes are 
being diagnosed with PTSD, ADHD, anxiety, depression, drug 
addictions, anger issues, et cetera, when, in fact, they may 
have CTE.
    When I see a guy on TV hitting his wife, shooting his 
friend, or going on a high-speed car chase, I wonder if maybe 
he played one too many football games. People need to know that 
this invisible disease is more common than we know, that it can 
develop in youth, high school, and college levels of collision 
sports. Families need to know what the causes and symptoms are, 
and how to address the disease.
    This has been hidden in plain sight for much too long. It 
was this realization that prompted us to form the Patrick Risha 
CTE Awareness Foundation and the Web site, stopCTE.org. We also 
created a brochure, Flag Until 14 to help parents understand 
the key issues of CTE.
    Heading the ball has recently been eliminated from youth 
soccer. Checking in hockey has been eliminated in youth 
leagues. Yet, over 2 million children are still putting their 
precious brains at risk in tackle football. The urgency of this 
problem is beyond measure. I wish we would have known the truth 
25 years ago.
    There are those out there who would prefer parents didn't 
know about CTE. They will obfuscate the issue with unreasoned 
arguments. We've heard a few, like you can get a concussion 
riding a bike, or you're turning our warriors into pansies, or 
do you want them to sit and play video games for the rest of 
their lives? When you have lost your son to CTE and you 
understand how it is caused and how prevalent it is, these 
arguments are hurtful and, in my opinion, keep children at 
risk.
    We see CTE as a human tragedy of immense proportions, and 
we need the help of everyone in this room and beyond. We all 
now have the duty to save children and families. CTE is 100 
percent preventable. We need to remove repetitive head trauma 
from youth sports. To do anything else is to be complicit to 
the problem, knowing more families will suffer the pain we 
personally endure every day.
    Thank you very much.
    [The prepared statement of Ms. Zegel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. I thank both for that moving testimony. I think 
I'm just going to ask you one question. And that is, you 
mentioned that Patrick began playing football at age 10 and 
continued on. Do you know if his coaches, anybody working with 
the teams, had any specialized training to recognize, or be 
aware of concussions and injuries and discussed with his 
teammates? Do you know if there's any of that training?
    Ms. Zegel. At that time, I knew most of the coaches 
personally, and I would have to guess no. I mean, we're going 
back a ways before people starting talk about concussion.
    Mr. Murphy. Even on the collegiate level, too? Even on the 
college level, too?
    Ms. Zegel. At the college level, as a parent, I was never 
informed of anything like that.
    Mr. Murphy. OK.
    Ms. Zegel. I mean, that would have been nice to know then, 
but, no.
    Mr. Murphy. Ms. Jantz, can you answer that, too? Any 
training you thought the youth coaches had to recognize, be 
aware of anything with concussions or head injuries?
    Ms. Jantz. Not back in 2004 when Jake experienced this. 
Even--I mean, Jake's stepfather and myself were both medical 
professionals, and while we understand, you know, obviously, 
hitting your head is a bad thing, we certainly didn't have the 
background that we have now where you would have the 
opportunity to truly, you know, step back and look at it. 
Perhaps he would have been pulled and not played the next week. 
So I think that in those times, we did not have that, and now 
we have an opportunity to make sure that coaches and the people 
who are involved with our kids have all that information.
    Mr. Murphy. Thank you.
    Ms. DeGette.
    Ms. DeGette. Thank you. Just following up on the chairman's 
questioning.
    Ms. Jantz, I've been given this brochure. I think probably 
your Foundation was involved in helping put this together. Is 
that right? And it's called, REAP, Remove/Reduce, Educate, 
Adjust/Accommodate Pace by the Center for Concussion at the 
Rocky Mountain Hospital for Children. And it really goes 
through a lot of information for educators and parents.
    Ms. Jantz. Yes.
    Ms. DeGette. It's a wonderful piece. I'm wondering, is this 
distributed? What do folks do with this?
    Ms. Jantz. Well, we have a used that. It is distributed and 
available. We've made it available to school districts, to 
various groups, actually, I like to say anybody who I can get 
to listen, I will be happy to give that to. And it's a 
comprehensive way of managing concussions, and it's community-
based. And it's got a section for parents; and it's got a 
section for medical professionals, and it has a section for the 
students and teachers. So everybody has a different piece in 
this.
    We're not with our kids 24 hours a day.
    Ms. DeGette. Right. And, Ms. Zegel, you also have formed a 
foundation, an advocacy foundation. And I'm assuming that 
you've also been working to get information like this out to 
parents, educators, coaches?
    Ms. Zegel. Right. Our current goal is--we're working with 
medical examiners and coroners on one end, trying to get them 
to recognize the disease if they are presented with a drug 
overdose, or suicide, or something like that. Then on the other 
end, we're trying to get--push for parents to have informed 
decisions that flag football is fun and--and it could be a lot 
of very famous football players never played until high school.
    Ms. DeGette. And you've got your brochure right next to 
you?
    Ms. Zegel. Yes, my daughter made that up.
    Ms. DeGette. Your daughter made that? That's wonderful. Mr. 
Chairman, thank you so much.
    Ms. Zegel. Thank you.
    Ms. DeGette. And I would ask unanimous consent to put both 
of these brochures in.
    Mr. Murphy. Without objection, that's a great idea. Thank 
you.
    [The information appears at the conclusion of the hearing.]
    Ms. Zegel. Thank you.
    Ms. DeGette. Thank you for coming.
    Mr. Murphy. Without objection. We want to thank our first 
panel. They have just called votes, so what we are going to do, 
we are going to take a break. Vote. I think we have three 
votes. We will do that as quickly as congressionally possible. 
We will come back. This will give the panel and opportunity to 
sit down and be ready. As soon as that last vote, I ask members 
to be back here immediately. We'll get going, because our goal 
is to finish this hearing before the second set of votes. So we 
will work on that.
    Thank you, we will be recessed until votes are ended. Thank 
you.
    [Recess.]
    Mr. Murphy. Could our witnesses please take their seats?
    All right. Thank you. We're going to get moving right away 
because we know we've got another vote series, and we'd like to 
all give you the opportunity to testify. So I'd like to 
introduce the witnesses of our second panel for today's 
hearing.
    We have Mr. Eugene Buddy Teevens to lead up our second 
panel. He has been head football coach at Dartmouth College 
since 2004, where he has implemented a policy of noncontact 
practices. I believe, Coach, you also were a teammate of the 
famous coach from Harvard University named Tim Murphy. He's my 
twin.
    Next, we'd like to welcome Dr. Andrew Gregory. Dr. Gregory 
is here as a member of the Medical Advisory Committee for USA 
Football.
    Mr. Kevin Margarucci--did I say that correctly?--of USA 
Hockey. Mr. Margarucci has 20 yours of experience as a 
certified athletic trainer and now serves as the manager of 
player safety at USA Hockey.
    Next, we welcome Mr. Steve Stenersen. Mr. Stenersen has 
served as executive director and now president and CEO of USA 
Lacrosse since 1998.
    Next, we welcome Mr. Terry O'Neil. Mr. O'Neil is the 
founder and CEO of Practice Like Pros, whose mission is to 
educate high school coaches on alternative practice regiments.
    Next, Dr. Dawn Comstock, who is an associate professor at 
Colorado School of Public Health and one of the Nation's 
leading experts on high school injury surveillance.
    And finally, I'd like to introduce Dr. Thomas Talavage.
    Dr. Talavage. Close enough.
    Mr. Murphy. Is that close enough? What is the correct? Say 
it.
    Dr. Talavage. Talavage.
    Mr. Murphy. Talavage. I'll get it right.
    Professor at the Weldon School of Biomedical Engineering at 
Purdue University. Dr. Talavage is also the founding codirector 
of Purdue's MRI facility and a part of the Purdue Neurotrauma 
Group.
    Thank you to all the witnesses for being here today. I look 
forward to having a productive discussion.
    You're all aware that the committee is holding an 
investigative hearing and when doing so has the practice of 
taking testimony under oath. Do you have any objections to 
testifying under oath?
    Seeing no objections, the Chair then advises you that under 
the rules of the House and rules of the committee, you're 
entitled to be advised by counsel. Do any of you desire to be 
advised by counsel during your testimony today?
    And seeing no comments on that, then in that case, would 
you all please rise, raise your right hand, and I'll swear you 
in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. All witnesses have answered in the 
affirmative. And so now you're all under oath and subject to 
the penalties set forth in Title 18, Section 1001 of the United 
States Code.
    I'm going to ask you all to give a 5-minute summary of 
you're written statement. Please pay attention to the lights in 
front of you because we are on tight time for that.
    Mr. Teevens, you're now recognized for 5 minutes. Coach, go 
ahead. Make sure your microphone is turned on and you pull that 
mike as close to you as possible, almost touching it. Thank 
you.

  STATEMENTS OF EUGENE F. (BUDDY) TEEVENS, III, HEAD FOOTBALL 
    COACH, DARTMOUTH COLLEGE; ANDREW GREGORY, M.D., MEDICAL 
    ADVISORY COMMITTEE MEMBER, USA FOOTBALL, AND ASSOCIATE 
    PROFESSOR OF ORTHOPEDICS, NEUROSURGERY AND PEDIATRICS, 
    VANDERBILT UNIVERSITY MEDICAL CENTER; KEVIN MARGARUCCI, 
 MANAGER, PLAYER SAFETY, USA HOCKEY; STEVE STENERSEN, CEO, US 
  LACROSSE; TERRY O'NEIL, FOUNDER/CEO, PRACTICE LIKE PROS; R. 
   DAWN COMSTOCK, PH.D., ASSOCIATE PROFESSOR, DEPARTMENT OF 
 EPIDEMIOLOGY, COLORADO SCHOOL OF PUBLIC HEALTH; AND THOMAS M. 
     TALAVAGE, PH.D., PROFESSOR OF ELECTRICAL AND COMPUTER 
 ENGINEERING, WELDON SCHOOL OF BIOMEDICAL ENGINEERING, PURDUE 
                           UNIVERSITY

          STATEMENT OF EUGENE F. (BUDDY) TEEVENS, III

    Mr. Teevens. Thank you, Mr. Chairman. I'd like to thank 
Kelli and Karen for their testimony as well. I think it 
underscores the importance of the committee.
    Voice. Can you bring the mike closer?
    Mr. Teevens. Closer?
    As I mentioned, I'd like to thank Karen and Kelli for their 
stories, and I think it underscores the importance of the 
committee and your task.
    My name is Buddy Teevens. I've been a college football 
coach for 35 years. I've coached in the Ivy League, the SEC, 
the PAC-10, the Big Ten, Conference USA, and the Yankee 
Conference. During the course of summers, I work with all age 
groups, peewees right through high school-age kids.
    And football is a very special game. The life lessons with 
all the team sports, things people learn, the friendships they 
make, the experiences they have. I love the game of football, 
but I love my players more.
    And looking at concussive head injury through the course of 
time, I was--5 years ago, I made the decision that we were 
going to eliminate tackling from our practices, in-season 
practices, spring practices, pre-season practices. And the 
guarantee I make to parents is their son comes to Dartmouth, 
they will never tackle or be tackled by another Dartmouth 
football player for their 4 years.
    Now, making that decision, I wasn't 100 percent sure I was 
doing the right thing. I worried about my players. Was I 
putting them at a competitive disadvantage? Was I preparing 
them fully for games? It was not a popular decision amongst my 
staff. It went from complete ridicule, to disbelief, to 
condemnation in some parties.
    I was convinced, however, I did a lot of research on it, 
that the way that we teach tackling was not the way that we 
tackle in games. And what I looked at, at length, was our 
defensive tape and how we actually tackled. And then we tried 
to replicate that tackling practice that we saw in games 
against pads, fitting them against other players without going 
to live concept, tackling sleds. We developed at Dartmouth, 
with the Thayer School of Engineering, a mobile tackling 
device, which has been quite beneficial in terms of actually 
replicating a moving target.
    With that, we actually tackle, I would say, more than 
anybody else in the country. Each of my players annually, 500 
to 800 tackles per year, but never one against another human 
being. The only time our guys tackle are 10 games per year 
during the course of the season.
    What's happened is our injury reduction has been 
phenomenal. Missed tackles, which we chart aggressively, 
dropped 50 percent the first year that we went to this 
nontackling process. And people ask me why, and it's, quite 
simply, the skill of tackling, we practice more than we did 
when we were tackling live. It's a shame, but in our sport, the 
most injurious act, tackling, is the one that's practiced the 
least because of the fear of the risk of injury.
    So by putting our guys in a position to tackle with 
regularity, and this was unanticipated, we've become much more 
proficient at executing the act of tackling. You hear an awful 
lot about rugby tackling. I think football is a different 
sport. Shoulder tackling is a thing that we do preach. We don't 
talk about the head other than say take it completely out of 
contact points. And it's like riding a bike. You don't just 
throw someone on a bike and let them start to figure it out. 
There's a process, training wheels and so on, support from 
parents. I do the same thing with our football players.
    A lot of folks ask me, well, can you do that at different 
levels? Without question. People look at the NFL, and I use 
them as a model. They hit less than anybody in the world and 
their concussive results in practice are probably some of the 
best. We've gone from a football team that struggled at times 
to we're a championship team. We've won 17 games in the last 2 
years, Ivy championship this year, and we had zero defensive 
concussive head injuries this season. And it's all a process of 
how you present to your players. The buy-in has been 
appreciable. It's been wonderful from a recruiting standpoint.
    Can other people use it? And I speak nationally with this. 
Prep school, Pop Warner school, youth football, they'll say, 
well, how do you teach someone that's never tackled a human 
being? Well, it's a crawl, walk, run. Start with pads and 
progress forward. And I fully believe at any level that the 
approach we take--and I'd like to kick on a video right now, if 
I could. I think I've got time. And this will demonstrate more 
accurately than I could with words how we actually practice 
tackling.
    [video shown.]
    Mr. Teevens. We tackle literally every day that we practice 
and we put people in a position to execute the things that they 
would do on game day. A tackle's different from position to 
position. A defensive lineman will not execute the same skill 
set that a defensive back will. And we've actually broken it 
down to levels of tackling, planes of tackling, and then 
repetitions that we have. The end result is we play at a very 
high level. We've been very, very successful and we've been 
very, very safe.
    [The prepared statement of Mr. Teevens follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you very much.
    I now recognize Dr. Gregory for 5 minutes.

                  STATEMENT OF ANDREW GREGORY

    Dr. Gregory. Chairman Murphy and members of the 
subcommittee, my name is Dr. Andrew Gregory. I'm a pediatric 
sports medicine specialist at Vanderbilt University Medical 
Center. I'm a fellow of both the American Academy of Pediatrics 
and the American College of Sports Medicine, as well as a 
member of USA Football's Medical Advisory Committee. I am not a 
USA Football employee, nor do I receive any compensation for 
being on the committee. I'm also a parent of an 18-year-old 
daughter who's a soccer player. Thank you for the invitation to 
testify on USA Football's behalf.
    In short, USA Football is the sport's national governing 
body and a member of the U.S. Olympic Committee. It is an 
independent nonprofit organization. We create resources and 
direct programs establishing standards using the best available 
science, educating coaches, parents, and athletes. Our programs 
are endorsed by more than 40 organizations spanning medicine 
and sport, including the American College of Sports Medicine, 
the National Athletic Trainers' Association, and the American 
Medical Society for Sports Medicine.
    I'd like to highlight three elements of how USA Football 
addresses player safety. The first of that is education. We 
train more youth and high school football coaches combined than 
any other organization in the U.S. Education is the core of our 
Heads Up Football program, which we're going to highlight. This 
is delivered through online courses and in-person clinics. 
There are six educational components of this program, which you 
can see listed on the slide: Concussion recognition/response, 
heat preparedness and hydration, sudden cardiac arrest, proper 
equipment fitting, and then tackling and blocking techniques.
    More than 6,300 youth leagues and 1,100 high schools 
nationwide representing about a million young athletes enrolled 
in Heads Up Football in 2015.
    The second element is research. USA Football advances 
player safety by commissioning independent research. According 
to a 2014 youth football study encompassing more than 2,000 
players, leagues that participated in the Heads Up Football 
program showed a 76 percent reduction in all injuries during 
practice, 38 percent reduction in all injuries during games, 34 
percent fewer concussions during practice, and 29 percent 
decline in concussions during games.
    A subset of this group showed that players and leagues 
enrolled in Heads Up Football had two to three fewer head 
impacts of 10 Gs or greater during practice, which may equate 
to more than 100 fewer impacts in a season.
    On the high school level, Fairfax County Public Schools has 
reported a 43 percent decline in football-related concussions 
since 2013 for 3,000 players since implementing Heads Up 
Football, and a 24 percent decline in overall football 
injuries.
    And, finally, we'll highlight innovation. USA Football 
provides practice guidelines, practice planning tools, and 
defined levels of contact. You can see the levels of contact 
listed there on the slide, including air; bag; control, which 
is a noncontact or nontaking down to the ground drill; thud, 
which is a controlled drill where you are not taken down to the 
ground, but there is contact; and then, finally, live action, 
where you are taken down to the ground.
    More young footballers than ever are learning the 
fundamentals of gradually and appropriately tackling before 
advancing to full contact. Where USA Football's programs are in 
place, today's youth and high school football is not the same 
as what it used to be for your children or what you may have 
watched.
    We'll conclude with a video showing the difference that USA 
Football and Heads Up Football are making.
    [Video shown.]
    [The prepared statement of Dr. Gregory follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you.
    Now we'll hear the testimony of Mr. Margarucci. You're 
recognized for 5 minutes.

                 STATEMENT OF KEVIN MARGARUCCI

    Mr. Margarucci. Thank you, Chairman Murphy, Ranking Member 
DeGette, and distinguished members of the subcommittee. It's a 
privilege to be here today on behalf of USA Hockey to discuss 
the issue of player safety.
    USA Hockey takes safety as a top priority and always has 
and has been one of the leaders in safety among youth sports 
entities. The safety starts with our leadership and goes on 
down to the rest of our organization, from our president, Jim 
Smith; our executive director, Dave Ogrean; our chief medical 
and safety officer, Dr. Michael Stuart, from the Mayo Clinic in 
Rochester, Minnesota; the chairman of our Safety and Protective 
Equipment Committee, Dr. Alan Ashare from the St. Elizabeth's 
Medical Center in Boston. He chairs a committee that has been 
around for some 40 years, which guides our board in making 
safety policies for our sport.
    The USA Hockey Foundation yearly awards grants in the area 
of injury prevention and research with ice hockey injuries. 
Recently, I was hired as manager of player safety, a full-time 
position at USA Hockey, which further shows a commitment to 
safety in our sport.
    And, finally, we've had the Hockey Equipment and 
Certification Council, which was urged to be formed by USA 
Hockey in 1978. This is an independent body which studies the 
equipment that manufacturers produce and makes sure that meets 
the standards for protection in ice hockey.
    When we look at prevention, we start with our rules 
enforcement. We have a very strict officiating education 
program, which involves online modules for refs at every level, 
classroom work, and on-ice clinics. At every level, once 
officials are working, they are supervised, mentored, and given 
feedback, and shown videos of proper rule enforcement to make 
the game safer.
    We have implemented stricter penalties, with emphasis on 
boarding, charging, checking from behind, and head contact. In 
2009 and 2010, our rule book focused on the standards of play 
and emphasis on body checking. In 2011, our executive board 
ruled to make a rule change which increased the legal age of 
body checking in our sport from 12 and under level to the 14 
and under level. This decision was based on a lot of scientific 
research, not only on player skill development, but also safety 
and injury risks between those age groups.
    In 2009, USA Hockey created the American Development Model. 
This model is an age-appropriate skill development and training 
based off of research of long-term athlete development.
    Our coaching education program has been a gold standard in 
youth sports for years. In 2011-2012, there became online 
required modules for our coaches, which include concussion 
awareness and recognition in all those modules for the age-
appropriate levels.
    Within this structure, we've published a checking the right 
way for youth hockey, which is an age-appropriate progression 
of skills required to properly body check in the game of 
hockey. It starts with skating, and is always focused on 
attitude, ethics, and respect for the sport and your opponents. 
It goes from skating, positioning and angling, stick checking, 
body contact, and then body checking.
    Heads Up, Don't Duck was a program initiated by Dr. Ashare 
in 1995. This was followed in 2010 by our Heads Up Hockey 
program. Both programs, the emphasis is playing the game with 
your head up, especially when coming in contact with the 
boards, goalposts, or opponents; keeping your heads out of 
taking and giving a body check; do not check from behind; and a 
library of skills and drills to teach these to our players.
    We educate our members constantly through information 
available on our Web site; electronic communications through 
newsletters to our parents, players, coaches, officials, which 
often have concussion awareness and education materials in 
them. USA Hockey will start publishing an electronic newsletter 
specific to safety in the fall of 2016.
    Currently, the Mayo Clinic sports medicine is doing 
research to identify objective testing to identify those 
athletes with potential concussion using blood biomarkers, 
sideline EEGs, and the King-Devick Test. And this study is 
funded by our USA Hockey Foundation.
    Finally, on the treatment side, we have a comprehensive 
concussion management program available to all of our 
associations, which is the minimum standard for any USA Hockey 
program to follow. And the biggest message in this is when in 
doubt, sit them out.
    Thank you for allowing me to speak here today on this 
important topic of player safety and concussions.
    [The prepared statement of Mr. Margarucci follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. Margarucci.
    Mr. Stenersen, you're recognized for 5 minutes.

                  STATEMENT OF STEVE STENERSEN

    Mr. Stenersen. Good morning, Chairman Murphy, Ranking 
Member DeGette, and distinguished members of the House 
Oversight and Investigations Subcommittee of the Energy and 
Commerce Committee. My name is Steve Stenersen and I serve as 
CEO of U.S. Lacrosse, the sports Maryland-based national 
governing body.
    Our nonprofit organization has proactively led and funded 
many sport-specific prevention and research initiatives that 
have resulted in a number of interventions in the areas of 
rules, equipment, and education. We also participate actively 
in the efforts of numerous national collaborations focused on 
reducing injury risk in youth sport, which I have referenced in 
my written testimony.
    Lacrosse is the oldest sport native to the North American 
continent. Native American play was first documented by Jesuit 
missionaries in the 1600s. Modern rules for lacrosse were first 
adopted in the late 19th century, but two distinctly different 
versions of the sport for men and women evolved in the first 
half of the 20th century. Lacrosse has experienced an 
unprecedented surge of popularity in recent years, in part due 
to the formation of U.S. Lacrosse as the sport's first national 
governing body in 1998.
    U.S. Lacrosse established a Sports Science and Safety 
Committee when the organization was formed, and that committee 
is comprised of prominent medical and research professionals 
representing a variety of specialties, as well as 
representatives from a number of multisport organizations. 
We've been described as one of the most proactive sports 
organizations in the country relative to our commitment to 
injury prevention, and we were recognized for our efforts in 
that regard last May through the introduction of a 
congressional resolution, H.R. 267.
    Our Sports Science and Safety Committee prioritizes and 
oversees research initiatives, recommends interventions to the 
U.S. Lacrosse board of directors, and leads the development of 
educational initiatives intended to reduce injury risk and 
directed to coaches, officials, players, and their parents. My 
written testimony includes references to the published research 
and safety interventions U.S. Lacrosse has led.
    We also have invested significantly in the development and 
deployment of the sport's first standardized coaching/
officiating curricula. Unfortunately, public focus is too often 
directed at equipment interventions, which are less effective 
in preventing injury than assuring that players are properly 
taught and games are properly officiated. Among the biggest 
challenges we face is convincing youth leagues and State high 
school associations that requiring our standards for lacrosse-
specific coach and official education is fundamental to a safer 
and more enjoyable playing experience.
    The prevention of lacrosse-related concussion has been a 
particular area of focus for U.S. Lacrosse, and we've committed 
considerable time and resources to concussion education, 
research, and prevention. The benefits of playing youth sports 
are well documented. And while lacrosse is considered to be 
relatively safe compared to other sports and activities, 
serious injuries, such as concussions, occur.
    There is much we have learned about the nature of 
concussion in recent years, particularly the critical 
importance of recognizing symptoms and removing children from 
play until cleared by a medical professional trained in 
concussion management. We've also learned that no piece of 
protective equipment on the market today can prevent a 
concussion; that the mechanism of injury is different from 
sport to sport; and in the case of lacrosse, different in boys 
lacrosse than girls lacrosse.
    We've learned that the injury and its recovery can be a 
very different experience for girls than boys, which demands 
further focus and study. And we've learned that increased sport 
specialization at younger ages is increasing the number of 
injury exposures for young athletes and contributing to 
increases in overuse injuries on developing bodies.
    Perhaps most importantly, we've learned that the vast 
majority of children who experience a concussion can recover 
fully if their injury is recognized quickly and they receive 
proper care.
    Concussion remains a significant health concern in youth 
sports and it will remain a priority for U.S. Lacrosse. 
Accordingly, we'll continue to invest in research that helps us 
learn more about the mechanism and frequency of the injury in 
both boys and girls lacrosse in order to advance educational, 
rule, and equipment interventions most effective in reducing 
injury risk.
    Thank you for the opportunity to share my thoughts on this 
important issue, as well as your efforts to increase the health 
and wellbeing of our Nation's young athletes.
    [The prepared statement of Mr. Stenersen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. Stenersen.
    Mr. O'Neil, you're recognized for 5 minutes.

                   STATEMENT OF TERRY O'NEIL

    Mr. O'Neil. Mr. Chairman, thank you.
    Mr. Murphy. Would you put your microphone on, please? Is it 
on? There should be a light. And just pull it as close to you 
as possible.
    Mr. O'Neil. So, Mr. Chairman, we'd like to begin, if we 
may, with a sound bite, 30 seconds from Dr. Ann McKee, which 
follows on many comments heard earlier this morning. Dr. McKee 
is one of our colleagues. These were her comments 2 months ago 
during your roundtable.
    [Video shown.]
    Mr. O'Neil. ``Immediately,'' Mr. Chairman, a word we heard 
this morning as well, and that's our middle name: immediately.
    Let me begin by saying here's where we started with our 
chase for immediate results. The National Football League, 32 
teams, 2,000 players, as you know, practicing for 5 months in 
regular and postseason. There were 271 total concussions in the 
NFL this last year, 271. Question: Not in the games, but in 
practice, how many concussions do you think on NFL practice 
fields last season? Answer: Eight, because they've learned how 
to practice. Those eight concussions in a universe of 271 
represents 3 percent.
    So now the big question. What is that number in high school 
football, do you think? What percentage of high school football 
head trauma occurs on the practice field? Sixty to 75 percent. 
The worst, most shameful statistic in all of football, and this 
is the reason we're in business. This is the reason why a 
number of Hall of Famers, at no appearance fee, chase around 
the country with us; among them Warren Moon, Anthony Munoz, 
Tony Dorsett, Mike Ditka, showing high school coaches on video 
how to practice with less contact. These men do this generously 
because they believe this is the future of football.
    So let's quantify our recommendations. We're going to show 
you how they practice in the pros.
    [Video shown.]
    Mr. O'Neil. This is called full-speed-to-contact practice, 
which means they run the play full speed to get the timing, the 
pacing, the choreography of the play, but at the last moment, 
the moment of imminent contact, rather than tackle, they break 
away from each other. It's football ballet, as you see it here.
    Here's Dartmouth College.
    [Video shown.]
    Mr. O'Neil. You'll see a pass down the middle. A safety in 
practice here could light up this receiver with a perfectly 
legal hit, but it's his teammate, so at the last minute, he 
veers away from it. He'll save that tackle for Saturday. OK?
    In the NFL, Cleveland Browns, watch number 22 in white 
here. He'll track this play full speed. Everybody stays on 
their feet, because only bad things happen when you go to the 
ground. He tracks the ball carrier, but at the moment when he 
might tackle, he stops and let's the ball carrier continue. 48 
in brown, lead block here, one of the most vicious hits in all 
of football. What's he do, 48 in brown, he comes--he identifies 
the player to be blocked, he comes to him, sinks his hips and 
just lays his hands on him. And what about this defensive back 
in the shadow? Is he going to tackle on a Wednesday or a 
Thursday? No. He did everything to put himself in position 
except make the tackle.
    Seattle Seahawks, same thing. Are they going to tackle a 
teammate in the middle of the week or save it for Sunday? They 
save it for Sunday.
    Contrast that now with high school football. Here's a high 
school scrimmage. A quarterback has four teammates with their 
hands on him. Are they going to hold him up, wrap him and hold 
him up, or take him to the ground? This has been a good 
practice exercise for everybody involved. We've learned a 
little something from it.
    Let's go back to the quarterback. Did we take him to the 
ground or wrap him up and hold him? We took him to the ground 
and broke his wrist. Totally needless.
    At this same high school in Connecticut, a young man named 
Cody Gifford played, son of Frank and Kathy Lee Gifford. Frank 
was a colleague of mine at ABC Sports many years ago. Cody 
actually made the team at USC as a walk-on. You can't believe 
how proud his father was. My son, Liam, also played at this 
same high school. He's now a backup quarterback at Tufts.
    Frank Gifford and I used to talk about this frequently, and 
one day we sat and we put together the composite injuries in 
high school between our two sons, the concussions, the 
fractures, the knee ligaments. How many of those 10 major 
injuries do you think occurred in games and how many in 
practice? Two in games, eight in practice. Utter madness, Mr. 
Chairman.
    So what do we recommend to rectify the problem? We are the 
only organization of the five national organizations who 
operate in this space that's committed to an immediate 
abolition of contact football below the age of 14 and ninth 
grade. We want to convert those leagues to flag. No contact 
until ninth grade.
    Once in high school, no full contact in spring, summer, and 
off season; 3 hours total in preseason; 30 minutes a week 
during the season.
    Mr. Murphy. We're going to have to wrap up so we can 
continue on.
    Mr. O'Neil. How does this compare to the other major 
organizations operating in this space? National Federation of 
High Schools and USA Football, which operate in concert, allow 
three times as much contact as we do, Pop Warner four times as 
much contact as we recommend, and the NCAA six times as much as 
we recommend.
    [The prepared statement of Mr. O'Neil follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you. And during questions, if there's 
other conclusions you want to make, we'll--we're way over time.
    Dr. Comstock, you're recognized for 5 minutes.

                 STATEMENT OF R. DAWN COMSTOCK

    Dr. Comstock. Thank you, Chairman Murphy. It's an honor to 
be asked to testify before this committee, particularly 
representing Colorado's School of Public Health at the 
University of Colorado Anschutz Medical Campus as a--under 
Congresswoman DeGette's in her State.
    I'm here today because I run the National High School 
Sports-Related Injury Surveillance Study. I've done so for the 
last 11 years. In effect, I've dedicated my entire career to 
trying to improve high school athletes' safety, not because I'm 
a policymaker or a clinician, but because I collect the data 
that's needed to drive informed, evidence-based decisions. I 
want to share just a few examples today and describe why those 
are so important.
    This first slide shows some high school RIO data, just 
simple concussion rates over time. You can see that concussion 
rates were stable for a few years before dramatically 
increasing, in fact, doubling between 2008 and 2012. They've 
leveled off in recent years.
    Understanding trends over time like this is crucially 
important both so that we can evaluate the magnitude of the 
problem, but also so that we can determine which interventions 
may, in fact, be effective and which ones may not. Only long-
term surveillance information can provide this data.
    This next slide shows that some of the information I heard 
a little earlier that, you know, we don't want to wait to try 
to do intervention work because we don't want to wait for the 
years and years it takes to collect the data; we don't have to 
wait. I intentionally put just 1 year worth of high school RIO 
data up here to show you that, even with 1 year of 
surveillance, we can look at patterns and trends across sports, 
across genders, across type of activity. And this is just the 
tip of the iceberg.
    I capture up to 300 variables on every concussion that's 
reported to my system. I can literally tell you when, why, 
where, how, and to whom each concussion occurred. This data can 
drive evidence-based intervention efforts.
    And I and many other researchers in the United States have 
the drive, the desire, the resources, technological and 
methodological, and the experience to be able to do this work 
at the youth level, just as it's currently being done at the 
collegiate and high school levels. What we don't have is the 
funding.
    Injury surveillance can also demonstrate positive outcomes 
as well; very important. This slide shows that we've actually 
had a big success when it comes to managing high school 
athletes' concussions. In the 2007-2008 academic year, 30 
percent of high school athletes diagnosed with a concussion 
returned to play in less than 7 days, which is a violation of 
accepted return-to-play guidelines. And disturbingly, 8 percent 
returned to play the same day they were injured. That's 
unacceptable.
    Look at how things have improved. Last year in 2014-2015, 
less than 10 percent of all athletes returned to play within 6 
days, and less than 2 percent returned the same day they were 
injured. This is the result of prevention; not equipment 
prevention, but education and regulation prevention. Effective 
prevention in public health, we talk about three legs of a 
stool. Equipment is one piece in terms of concussion, but 
educating individuals and providing good, strong policy based 
on evidence are the other two legs.
    I would love to come away from the efforts of this 
committee, incredibly important efforts, with the ability to do 
this work at the youth level. Currently, no one can give you 
this type of data for children playing sports who are younger 
than high school age. That's a travesty. We've got to protect 
our children who are playing sports because we want them to 
play sports.
    I'm not against sports, not even against contact sports. 
Despite my appearance, I played rugby for 13 years. Yes, I'm 
only 4' 11''. I played rugby for 13 years. I appreciate the 
fact that participating in sports is a very important way that 
children can incorporate physical activity as part of a daily, 
healthy lifestyle.
    We need everyone sitting at this table and our policy 
representatives, like the distinguished members of this panel, 
to work together to drive evidence-based prevention practices 
now. We don't want to wait for 30 years to learn about long-
term consequences of concussion. That's secondary and tertiary 
prevention. We need primary prevention. I already know that 
concussions are bad for us. I want to keep kids from being 
injured in the first place.
    Thank you.
    [The prepared statement of Dr. Comstock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you very much, Doctor.
    Now, Dr. Talavage, you're recognized for 5 minutes.

                STATEMENT OF THOMAS M. TALAVAGE

    Dr. Talavage. All right. Thank you very much, Chairman.
    So I'm Thomas Talavage. I'm a professor of electrical 
computer engineering and biomedical engineering at Purdue 
University, founding codirector of our MRI facility. I've been 
a member, in recent years, of the NCAA's Task Force on 
Concussions and I'm a member of the Scientific Advisory Board 
for the NCAA-DOD CARE Consortium. And I'm also one of the 
founding members of the Concussion Neuroimaging Consortium, 
which is a multi-institutional effort to bring together the 
researchers who have a history of publishing and doing research 
in the area of concussion and traumatic brain injury together 
to solve many of these problems. I serve for the Purdue 
Neurotrauma Group as our specialist in neuroimaging, and I'm 
also the lead PI for the Purdue College of Engineering's 
preeminent team on engineering healthier brains.
    As a rabid sports fan of the Pittsburgh Steelers and the 
Pittsburgh Pirates and the father of four very, very active 
young children, this is an issue that is very near and dear to 
my heart and has been for a long time.
    As a part of the Purdue Neurotrauma Group, I just wanted to 
summarize really quickly that our goals and our proposal into 
the future is to achieve safer participation in youth sports. 
Our goal here is to make sure that more children can 
participate in sports more frequently without really risk of 
injury, or at least a reduced risk of injury to something that 
is acceptable to us, such as riding a bicycle or playing 
baseball or playing basketball.
    Our goal is to achieve the same through the education of 
athletes, parents, coaches, and health care providers regarding 
the risks of not only concussive, but also subconcussive 
injuries through engineering-based improvements in protective 
equipment, through modeling and appropriate preventative 
methodologies that allow us to monitor exposure to head 
injuries and the risk of head injuries, and, finally, through 
techniques such as have already been described with improved 
training of athletes.
    Through the past 7 years, our pioneering study has been 
engineering based as following the model illustrated on the 
slide, where we're applying structural health monitoring, a 
technique developed from basic materials and basic structures 
in our everyday world, whether they be planes, bridges, 
automobiles, where you essentially do nondestructive 
evaluation, you document that a material is in good health 
before you continue forward with its use, and as that material 
starts to exhibit some sort of change, you effect either 
repair, or in the case of some materials, you allow them to 
rest, allowing them to recover.
    This methodology has been applied now, as I said, for 7 
years in the study of high school girls playing soccer and boys 
playing football. And our study, though, applying this 
methodology began like most of the other studies in this 
domain, where our real initial effort was to understand why 
some kids got a concussion and some kids didn't. But what we 
discovered very rapidly and has essentially driven our research 
since that time is that, in truth, many of the children who we 
think are not injured are, in fact, showing changes in their 
physiology, changes in their brain that are strongly suggestive 
of underlying brain injury.
    And what's really critical is that not only are athletes 
who are supposedly healthy, who do not have signs of a 
concussion, who are not diagnosed or even examined by their 
team's athletic trainer or their team's physician as having a 
concussion, will look abnormal in this manner for up to 5 
months after the season, which means that they may be spending 
8 to 9 to 10 months of the year in an abnormal state.
    So while we already know ahead of time that it's never a 
good idea to hit your head, the question now becomes how long 
is it that these athletes are injured and what can we do to 
prevent that injury in the first place? So our study has, as 
I've already mentioned, been going for 7 years, and if we are 
able to find funding some time in the future, we will continue 
to study, ideally later this year.
    I only wish to be working from this methodology with the 
goal being that if we understand how inputs, in this case 
mechanical inputs of heads being hit, whiplash events from the 
body being hit and the head snapping to the side, snapping 
forward, or rotating abruptly, will allow us to understand how 
each of those events affects the brain. Then we can go back and 
now correctly develop protective technologies, helmets, that 
will in fact prevent concussion rather than merely skull 
fracture. We can develop appropriate methodologies for 
identifying when an athlete should skip a practice, because 
clearly we want the kids to miss practice, not the games, and 
that's obviously what the kids want. And we will also then be 
able to evaluate whether or not recovery has been truly 
complete. Can we actually document that an athlete who has been 
pulled and is getting ready to return to play looks healthy 
enough that it makes sense for them to go back into play?
    So with that, we really feel, as the Purdue Neurotrauma 
Group and as myself as a researcher in engineering, that most 
of these changes can be made with no cost to the enjoyment of 
the game, but they are very likely to improve the freedom or 
the comfort to engage in these activities without any 
substantial consequences beyond those associated with other 
noncollision sports, such as baseball, bicycling, or whatever. 
And we really feel that the science is far enough along, that 
these changes should be made now rather than to wait any more 
time such that 30 million kids every year are exposed to 
potential injury. There is no reason not to act.
    [The prepared statement of Dr. Talavage follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Doctor.
    I do want to recognize--I'm going to start off with some 
questions here and let the members know that we're going to try 
and continue this. There will be one vote at some point. We're 
going to try and continue on and roll through that vote. So 
we'll just start.
    I do want to recognize in the audience, we have Nick 
Lowery, Nick the Kick, right, played for the New England 
Patriots, the Jets, and the Chiefs. Good to have you here 
today. Thank you for your interest in concussions.
    Also, Shawn Springs from the Ohio State, also the Redskins, 
Patriots, and Seahawks. I think you were the number one pick 
for the Seahawks, Pro Bowl. Both of you played Pro Bowl. Thank 
you for your interest also in concussions.
    And a former colleague, Phil ``the Doc'' Gingrey, is here 
as well. We appreciate you coming back. I do want to say he 
didn't make the Georgia Tech team, but I do understand you 
drove the mascot car, the Ramblin' Wreck. So it's nice to know 
your skill sets were seen where they were placed by Georgia 
Tech. It's a good thing.
    All right. I now recognize myself for 5 minutes.
    This goes to Dr. Gregory, Mr. Margarucci, and Mr. 
Stenersen. From the perspective of a youth sport organization, 
what are the greatest needs in terms of research related to 
concussions and player safety? Can you comment on those?
    Dr. Gregory. Sir, for clarification, the greatest needs?
    Mr. Murphy. Yes.
    Dr. Gregory. So my first response would be to agree with 
Dawn Comstock that we have these databases in college and high 
school, and we don't have them in youth sports. And so 
establishing a database for youth sports injury, I think, is 
imperative.
    Mr. Murphy. Mr. Margarucci, do you have a comment on that?
    Mr. Margarucci. Yes. I would echo Dr. Gregory's statements, 
that we do need to have a database of injuries that are 
occurring in our youth sports so we can make these decisions. 
And it's hard--we don't want to wait for the future, but we 
need to start, I think, gathering some of this information 
right now.
    Mr. Murphy. Mr. Stenersen?
    Mr. Stenersen. I would agree. I mean, each of us as sports 
is trying to do our best to fund research to our 
nonprofitabilities, but we need greater resources here to be 
able to drive that research into the youths' play area.
    Mr. Murphy. So along those lines with research, do you 
encourage coaches? Is there a way to help coaches and teams 
also keep track of their own database? This also, I assume, 
Coach Teevens too, that coaches keep track of their own data to 
see what happens at their own coaching style as a comparison. 
Would any of you like to comment on that?
    Mr. Stenersen. Well, I would say, and Dr. Comstock probably 
has a word here, but the challenge with that is the quality of 
the data that's collected. And unless it's collected well and 
consistently, which coaches, generally speaking, are not want 
to do, then we're concerned about having flawed data.
    Mr. Murphy. Dr. Comstock, do you have a comment on that?
    Dr. Comstock. Yes, I agree. We are concerned about the 
quality of the data, and that is directly correlated to who's 
reporting the data. At the high school and the collegiate 
level, we rely upon certified athletic trainers, certified 
athletic trainers, to report this data to us. However, I and 
others have been investigating ways that we could modify our 
surveillance systems to enable either a parent or a coach who 
is trained appropriately and appropriately motivated to be able 
to report, perhaps not 300 variables per injury, but at least 
enough variables that we could drive forward a lot of these 
discussions.
    Mr. Murphy. And, Coach Teevens, you did record, you did 
look for specific data.
    Mr. Teevens. Through the conference in general overseas and 
each medical team within the institutions report back. So 
it's----
    Mr. Murphy. And that's helpful to give the feedback, then, 
along those lines?
    Mr. Teevens. It is. You see where you stack up to some 
other teams in your league.
    Mr. Murphy. OK. So let me ask the panel too. How 
significant is the issue of athletes not reporting concussions? 
So if they themselves have symptoms, but they're not giving 
that information on. Can you comment on that? Who would like to 
comment?
    Dr. Gregory?
    Dr. Gregory. Yes. So I can tell you at all levels that is 
an issue, that the problem's being knowing what the symptoms of 
concussion are, and then if you report it to somebody, that 
person knowing what the symptoms of concussion are. So I do 
think that what Dawn showed with that data, that concussion 
rates are actually coming back down, I think is a result of 
education of coaches, athletes, players on what the signs and 
symptoms of concussion are.
    Having said that, I don't think we can stop there. We have 
to continue those efforts so that everybody is aware of that.
    Mr. Murphy. Anybody else want to comment on the player?
    Yes, Dr. Comstock.
    Dr. Comstock. Yes, sir. Actually, that same graph that 
showed the doubling of concussion rates between 2008 and 2012, 
our high school athletes didn't suddenly become twice as fast, 
strong, and vicious. The years preceding that, there were 
concussions occurring that just went undiagnosed, unrecognized. 
So the increase in the concussion rates, I think, truly reflect 
the great deal of education that's been done by individuals on 
this panel as well as groups like CDC and CIPC, the National 
Federation of State High School Associations, to make sure that 
when a concussion occurs, it is recognized----
    Mr. Murphy. So it may not have been that prior to that 
increase that concussions weren't occurring, it's just they 
were just getting reported?
    Dr. Comstock. Exactly.
    Mr. Murphy. And that means educating the players as well as 
the importance of doing this.
    Dr. Comstock. Yes, sir. And the parents and families and--
you know, the parents of these young athletes. It's important 
to educate them as well.
    Mr. Murphy. Do you see this as an ongoing problem with 
regard to injuries that this is working or you still have a 
ways to go?
    Dr. Comstock. Well, I think the fact that that curve has 
seemed to have peaked and leveled off, I think it actually is 
an indication, coupled with the last slide that I showed that 
shows how much better we're doing at managing concussions. I 
think both of those speak very highly to the success that we 
have had to date in educating parents, coaches, athletes, 
policymakers about concussion. We still have further to go, 
particularly in the younger groups.
    Mr. Murphy. Thank you.
    I'll yield now to Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    I want to take a look at some of the science that's out 
there. And by the way, it was really an excellent panel with 
everybody giving a great perspective.
    Dr. Talavage, your work examines high school football 
players as well as high school soccer players. Can you tell us, 
from your research, about the head impacts from contact sports 
and how they impact head injuries?
    Dr. Talavage. Yes. So what we've observed through our 7 
years of study is that when the athletes take large amounts of 
blows per week, whether they be of a modest size, such as 10 G 
or above--10 G just as a reference, if you just stand up and 
drop down into your chair, you will generate roughly 10 times 
the force of gravity acceleration on your head.
    So when players are taking numbers of 60 to 70 blows per 
week in football, for example, then those male athletes tend to 
start showing alterations in their brain physiology that are 
suggestive of either damage to neurons or at least some sort of 
impairment in the way information passes around your brain, and 
ultimately results in you being able to respond to a question 
or to answer a task or to achieve a target on a game or 
particular activity.
    For our female soccer players that have been in our study, 
they do not take quite that number of blows, but one of the 
things we have observed is that they get hit pretty much every 
day. So in the State of Indiana, high school football is able 
to practice 2 days per week plus have a game. Soccer, there is 
no restriction. They tend to practice 5 to 6 days per week.
    So we do find that not only are there changes from the 
actual raw number of blows, how frequently they're getting hit, 
but there strongly appears to be a consequence of how much time 
off are they given, which would suggest that there are natural 
repair mechanisms that we can exploit. And I believe that when 
we have these reduced contact cases, we are in fact benefiting 
our athletes.
    Ms. DeGette. Thank you. We had a forum in this committee in 
March, you heard us talking about it, and at that forum, there 
were some researchers who suggested that we don't have enough 
science to act on this issue, and they said we should wait till 
there's more research. What's your response to this line of 
questioning? Very briefly.
    Dr. Talavage. I don't believe that.
    Ms. DeGette. And that's because you actually have 
scientific research?
    Dr. Talavage. We have now about 16 papers in publication 
and we are working now with several other institutions around 
the country, including Penn State University, Northwestern 
University, Ohio State University, Michigan State University, 
and University of Nebraska to publish work that shows that 
there are, in fact, changes in the brain when you----
    Ms. DeGette. If you wouldn't mind getting that data to this 
committee, that would be very helpful for us in our 
investigation.
    Dr. Talavage. Be very happy to.
    Ms. DeGette. Thank you.
    I just want to ask you a couple of questions, Dr. Comstock, 
about gender differences in concussions and head trauma. The 
surveillance data you collected shows that girls soccer has one 
of the highest rates of reported concussions among high school 
sports. What do we know about gender differences in concussion 
rates? Are girls more likely than boys to get concussions?
    Dr. Comstock. Yes. That's a million-dollar question, if you 
will. We first reported in 2007 that in gender-comparable 
sports, so sports that both boys and girls play by the same 
rules, using the same equipment on the same fields, sports like 
soccer and basketball, girls have higher concussion rates than 
boys. That's now been replicated by other researchers in other 
populations.
    What we don't know at this point, people are working on the 
question, is, is it a biophysiological problem, are girls 
somehow----
    Ms. DeGette. Right.
    Dr. Comstock [continuing]. Different----
    Ms. DeGette. Right.
    Dr. Comstock [continuing]. And are they really sustaining 
more injuries, or is it a sociocultural issue? Because we don't 
have a definitive, objective diagnostic test for concussions, 
we're reliant on self-reports, and young female athletes may be 
more likely to report it when they're experiencing signs and 
symptoms.
    Ms. DeGette. But do we need to get more data?
    Dr. Comstock. Well, we already have the data that's 
consistently shown this gender difference. We do----
    Ms. DeGette. But what do we need to prove, then?
    Dr. Comstock. So this is one case where surveillance data 
isn't enough. We do need more detailed research to try to 
determine are there biophysiological differences or is it a 
sociocultural issue.
    Ms. DeGette. And, Dr. Talavage, you're nodding your head 
yes, you agree.
    Dr. Talavage. Yes. I mean, this is exactly what the intent 
of our type of study is. If we can understand how the brains 
are changing, we can determine whether or not it takes less to 
do it.
    Ms. DeGette. And you've got girls and boys?
    Dr. Talavage. We have girls and boys, 5 years----
    Ms. DeGette. Now, Dr. Comstock, I'm almost out of time. I 
just want to ask one more question.
    Dr. Comstock. Yes, ma'am.
    Ms. DeGette. You say that there's no data for--there's no 
surveillance for under high school ages. Do you think this is 
something that should be instituted so that people like you can 
get that data to see exactly what's going on?
    Dr. Comstock. Yes. I would love to do it. I'll give you the 
name of ten other researchers that can. This is imperative.
    Ms. DeGette. Who should set it up?
    Dr. Comstock. My work has not been federally funded. I've 
had nine different funding sources in 11 years of surveillance. 
The NCAA funds their own system. I think it should be a Federal 
effort, but I don't care if it's a joint effort of every one of 
these organizations of youth sports. Somehow we have to get it 
done.
    Ms. DeGette. One has to do it.
    Dr. Comstock. We have to get it done.
    Ms. DeGette. Thank you very much. Thank you for coming.
    Mr. Murphy. Thank you.
    Just to remind members that votes are called. We're going 
to continue to roll through.
    Dr. Burgess, you're recognized for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. I thank the panel for 
being here this morning.
    Coach Teevens, can I just ask you, I mean, your testimony, 
when I read through it last night, it was like, wow, this is a 
revelation, and it seems so obvious. Once you understand that, 
oh, my gosh, this is a repetitive injury, so you're not 
repeating the injury during practice, and so the only contact 
is on game day. But that must have been kind of a hard decision 
to make, because, I mean, when I was a kid growing up, it was 
always repetition, repetition, repetition, practice, practice, 
practice. Remember the old commercial? So what----
    Mr. Teevens. When I announced it to my coaching staff, they 
were waiting for the punch line. They thought I was kidding. 
But I put enough time and effort into it. I thought it was the 
appropriate approach to reduce injury with my players.
    Mr. Burgess. And you feel now--of course, you, what, 5 
years into this, you feel you have----
    Mr. Teevens. It's made a decided difference in the way that 
we practice, the safety. Peripheral injuries have dropped as 
well, just the confidence. My frontline guys practice through 
the course of the season. Defensively I had two players miss 
games this year. One had a high ankle sprain, and at our 
discretion we kept him out. Another had a lacerated kidney, a 
leg whip, a freak incident, he missed five games. That was it.
    So the regularity and the players--and I tell them, the 
rules of the game are get the guy on the ground; not injured, 
get him out of the game, get him on the ground. And you can 
teach that skill set. And we just--we practice it extensively, 
and I think we do a very good job, understanding it's an 
injurious--there's a risk playing the game, and we can minimize 
the risk.
    Mr. Burgess. Let me ask you this, and maybe you--and I'm 
sorry I wasn't here for your testimony, but when you go back 
and look at your record prior to instituting this program and 
in the years since, is there a marked difference?
    Mr. Teevens. We were 0 and 10, 2 and 8, and we ended up the 
last two seasons 8 and 2, and this past year 9 and 1.
    Mr. Burgess. So you've become remarkably better as a coach 
in that time?
    Mr. Teevens. Yes. Appreciably better, appreciably so.
    Mr. Burgess. Well, that's, again, fascinating story. It 
seems so obvious when you look at it. OK. Repetitive injury: 
We're going to reduce the risk by reducing the repetition, 
then--I, you know, certainly want to thank you for----
    Mr. Teevens. Quite simply, the more you hit, the more you 
get hurt.
    Mr. Burgess. I want to thank you for bringing that----
    Mr. Teevens. Thank you, sir.
    Mr. Burgess [continuing]. To the committee today. I don't--
I mean, again, I don't know that I was aware of that. I don't 
know how I would have been aware of it.
    Mr. O'Neil, I wanted to ask you, because, you know, when I 
first started reading your testimony and Practice Like the 
pros, and I thought, oh, my gosh, that would be dangerous, 
wouldn't it? Because, I mean, those are the guys that really--
dreadful stories you read about people who actually try to hurt 
each other in a game. But you had the observation with watching 
a practice that you said it was almost like a ballet. Is that--
do I understand that correctly?
    Mr. O'Neil. Yes, sir, it is, in that, as we pointed out 
with the video, the players execute every aspect of the play in 
rehearsal for Sunday until the moment of imminent contact, at 
which point they break away from each other and pat each other 
on the back.
    In the high school level, the proof of the efficacy of this 
is in the State of Wisconsin, the only State that is adhering 
to our standards at this point, put the standards in 2 years 
ago for the 2014 season. The University of Wisconsin Medical 
School did a study that year, the results published last 
October. Wisconsin high school football cut its concussions by 
more than half simply by adhering to our standards. That's a--
that is a breathtaking number in our business, to cut your 
concussions by more than half in 1 year. The quality of 
Wisconsin football has never been better, the players are fresh 
and ready to play. It is the high school model of what Mr. 
Teevens is describing at Dartmouth.
    Mr. Burgess. And has there been sort of widespread 
acceptance of that in the high school level?
    Mr. O'Neil. I'm glad you asked. Coach Teevens and I went to 
the Wisconsin high school clinic about 7 weeks ago in Madison. 
Because of these restrictions and because the coaches need to 
know how to practice with less contact, we had enormous 
attendance, more than 125 coaches. And the greatest followup 
that we've experienced in our 30 clinics around the country, 
more than half of those coaches asked for copies of our videos 
so that they could take them, show them to their staffs, show 
them to their players, and teach their players in the 30 
minutes, just 30 minutes of contact per week in practice, how 
to practice like pros or like the Dartmouth Big Green.
    Mr. Burgess. You know, I can't help but observe that Emmitt 
Smith won ``Dancing With the Stars'' a few years ago, probably 
based on that same concept. Because weren't some pro players 
using essentially dance moves and ballet moves to improve their 
performance?
    Mr. O'Neil. They were. And, Congressman, this--this 
approach of less contact in the pros actually dates way back to 
Bill Walsh at the 49ers in the 1980s, and has been refined and 
developed by his disciples along the way to a point where so 
many college players look forward to entering the pros in order 
to avoid the carnage of 90 minutes, twice a week, full contact 
in college practice, and instead practice the way the Dallas 
Cowboys have for many years.
    Mr. Burgess. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Murphy. I thank you.
    I now recognize Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. First of all, I want to thank the moms that 
were here. I want to thank Kelli Jantz and Karen Kinzle Zegel.
    Mr. O'Neil, you showed that video of Dr. Ann McKee 
answering my question at that----
    Mr. O'Neil. Yes, ma'am.
    Ms. Schakowsky [continuing]. At that roundtable. And I 
wanted to focus on CTE, because I think very little focus has 
been on the subconcussive brain injuries. And as she said, it's 
about limiting the head injury that occurs on every single play 
of the game at every single level of the game. And I followed 
up that question to Jeff Miller of the NFL, he's the chief 
person for health and safety, and said, what do you think? Is 
it--is CTE linked to football? And he said, ``Yes, certainly.''
    And little did I know that this was a kind of explosion 
that happened outside, outside that room, and even has started 
some conversation about what is the future of football? Is 
there a future for the kind of football that we play?
    So there's been a lot of talk about concussion, but I 
wanted to ask now more about CTE. So, Dr. Talavage, what does 
your research indicate about the effect that routine hits 
sustained by high school football players and younger have on 
brain function, even though they don't rise to the level of 
concussion? What about CTE?
    Dr. Talavage. So at this point, the linkage to CTE is a 
little bit nebulous from our--coming from our end. Obviously, 
from Ann's end, where you're able to look and see that 
individuals who have experienced larger numbers of hits over 
their career and over their lifespan tend to have more deficits 
and tend to be more likely to evidence CTE, as per brain banks, 
I think there's at least good circumstantial evidence for there 
to be a clear linkage between the total exposure and the total 
amount of brain stress that's accumulated from getting hit 
repeatedly day after day after day, year after year.
    Within our own athletes, though, what we can at least 
identify is that our athletes spend probably 5 to 8 months of 
the year in what appears to be a state of almost chronic 
inflammation. And when you have chronic inflammation, we know 
in the rest of the body that's a bad thing in the context that 
the cells are not able to eliminate waste, they're not able to 
bring in nutrients to keep those cells healthy.
    And so if what we're seeing is, in fact, proven to be true 
in our continued study, that we do have a level of chronic 
inflammation essentially for 5, 8 months of the year, then we 
are definitely putting our athletes at risk of precisely the 
types of biochemical processes that are going to lead to CTE.
    Mr. Schakowsky. Is there any test for CTE before an autopsy 
after death?
    Dr. Talavage. There are several imaging methodologies that 
propose to identify the presence of Tau biomarkers within the 
body, but there's nothing that has yet been confirmed.
    Mr. Schakowsky. My understanding is the kind of 
subconcussive events have to do with the brain inside the 
skull, and has virtually nothing to do with helmets?
    Dr. Talavage. So a helmet can, in fact, absorb energy, and 
it would be very easy, in fact, to improve helmet designs, but 
the companies aren't terribly interested in it at this point. 
Their goal is to meet the standards. The standards that are set 
forth are to prevent skull fracture and death on the field, 
which is clearly a goal, which they are very effective, but 
they do nothing to prevent concussion at this point in a 
meaningful sense. Energy absorption would reduce the amount of 
energy that reaches the brain. If you reduce the amount of 
energy that reaches the brain, you are going to reduce the 
amount of torsion, pulls, stress, compression on the cellular 
tissue. And if you do that, you will, in fact, start to see a 
reduction in the consequence of subconcussive hits. You should 
see a reduction in the observation of concussion, and you 
should, in the long term, see the reduction in the situation 
such as CTE.
    Mr. Schakowsky. Dr. Comstock, you don't think that kids 
under what age should be playing tackle football?
    Dr. Comstock. That's actually--I've never made any 
recommendation.
    Mr. Schakowsky. Oh, I thought you said something about it.
    Dr. Comstock. Yes. I am aware of other researchers that 
have given exact cut points.
    Mr. Schakowsky. Did someone on the panel say that?
    Mr. O'Neil. I did, Your Honor--Ms. Schakowsky. Our 
organization is the one in five national organizations 
operating in this space that believes strongly that grade 
school boys and girls should play flag football exclusively, 
and that contact football should start in ninth grade with a 
transitional phase in seventh and eighth grade where in shorts 
and T-shirts, boys who intend to play in ninth grade begin to 
learn how to tackle and how to block using the state-of-the-art 
in tackling technique called Sea Hawks tackling pioneered by 
the coaches, Pete Carroll and Rocky Seto of the Seattle 
Seahawks; Mr. Seto, being one of our leading supporters and a 
fellow who tours with us and had made a number of videos for 
us.
    Mr. Schakowsky. Now, there's been a good deal of pushback 
after Jeff Miller made his--his comment, Jerry Jones, the owner 
of the Dallas Cowboys, you know, has absolutely disregarded 
that. There's actually been some mocking of that, and this idea 
of the conduction between manliness and football, I think, is 
really concerning. And I wanted just to ask--let's see. I had a 
couple of other questions.
    Dr. Gregory, I am particularly--you know, if once all the--
well, let me ask you before my time runs out. That USA 
Football's guidelines limit full contact practices to four 
times a week, but I note that this represents more contact 
practices than at current higher levels of football, such as 
the college level and even in the NFL.
    So, you know, given all this evidence about repeated hits 
to the head, why hasn't USA Football taken steps to further 
limit full contact practice for young children?
    Dr. Gregory. So the question is a good one, in that we 
recognize that tackling causes injuries. If you look at data 
that we do have in youth football----
    Mr. Schakowsky. My time is up. So why haven't you?
    Dr. Gregory. So what we have instituted is ways of trying 
to decrease the number of hits that there are. The concern is 
if you take it away completely----
    Mr. Schakowsky. What about the four times a week?
    Dr. Gregory [continuing]. If you take it away completely, 
you still have to learn the skill. At the youth level, we don't 
have the resources that you have at the high school or college 
level to teach the skill. That's what we're trying to do is 
teach the skill to learn how to tackle appropriately gradually 
over time. That is the goal, to do it well, to protect your 
head.
    Mr. Hudson [presiding]. Thank you.
    At this time, I'll recognize myself for 5 minutes to ask 
questions.
    Mr. O'Neil, thank you for the work you do. I appreciate the 
information you gave us today. You advocate that children under 
14 should not be permitted to tackle, and should be limited to 
high school athletes. How do we assure that young athletes 
learn proper tackling techniques so when they do enter game 
situations, that they are not going to resort to distinct or 
more dangerous tackling, head down, whatever the case may be? 
If they don't get that practice when there's--contact is not as 
hard as it would be later, is there a concern of them 
internalizing those techniques?
    Mr. O'Neil. If staff would, possibly, allow me to queue up 
a 17-second video clip----
    Mr. Hudson. Sure.
    Mr. O'Neil [continuing]. Of Rocky Seto, which is number 24 
on our agenda here.
    Coach Seto is the guru of tackling. He and Pete Carroll had 
devised this system in Seattle that has become the standard in 
just 2 years, introduced 2 years ago in the spring. They put 
out three videos. And as I say, Coach Seto tours with us.
    No, it's not that. It's a--as I say, number 23, Rocky Seto 
tackling in shorts. Just to answer your question, Mr. Hudson, 
is what we recommend in seventh and eighth grade, is rather 
than hitting each other, these boys need to learn in shorts and 
T-shirts. They need an introduction to weight training. They 
need some strengthening of their necks, which I think all the 
scientists here would agree is important in preventing 
concussion. They need to learn how to wear the pads and be 
ready with this gradual run-up to ninth grade to be prepared 
without the many, many collisions involved in youth contact 
football.
    As we heard from Dr. Ann McKee so eloquently 2 months ago, 
it's the cumulative head trauma that causes brain injury. And 
you don't want to start that at age 5, which is permissible, 
according to some of the organizations represented here today, 
boys of 5 years old playing contact football is, in our minds, 
quite surprising.
    Any luck, Jake?
    Mr. Hudson. We'll look at the video after.
    Mr. O'Neil. I will be happy to show it to you, Mr. Hudson.
    Mr. Hudson. Thank you.
    So are there examples of cases where young kids have not 
had contact, have been until they reach high school age where 
they have been successful and----
    Mr. O'Neil. Thank you for asking. Tom Brady, Eli Manning, 
Peyton Manning.
    Mr. Hudson. I've heard of those folks.
    Mr. O'Neil. Archie Manning has waxed eloquently in The 
Washington Post here just a few years ago. I think his phrase 
was, God, what a great game flag football is.
    My son, a quarterback at Tufts University, would not be 
playing college football if he hadn't played flag instead of 
contact. It taught him everything he needed about reading 
defenses, making decisions, making good throws, all the 
teamwork, all the character building. Believe me, those who 
suggest that those qualities can only be developed in contact 
football have not heard my younger son and his teammates in the 
back seat of the car, as I drive them around, recounting their 
victories in flag football 4 and 5 years ago.
    The highlight of their athletic careers, they were already 
made football fans for a lifetime. They wore the NFL Jersey in 
playing flag. They came out of it healthy with an experience 
that has--has made them the young men they are.
    Mr. Hudson. Great. Thank you for that.
    Coach Teevens, do you have any thoughts on this, just in 
terms of if you wait until you are older to start learning 
tackle techniques, is that going to be a problem?
    Mr. Teevens. If it deprives people of an opportunity, they 
are still going to catch up real quickly. One of nine kids, six 
boys, we all played football in high school, and that was it, 
and all had fairly successful careers. There are a litany of 
people that have gone on. I don't think it's absolute. The big 
thing is it to educate. If they are going to play a young age, 
educate them properly, start slowly and make sure that you 
deprive them of as much contact as possible.
    Mr. Hudson. Thank you for that.
    Dr. Gregory, you have anything you want to share on this?
    Dr. Gregory. I'll only add in that I think if you are going 
to take the contact away, that the education piece on how to 
tackle is imperative, and that is the challenge for us in youth 
sports without the resources. I will also add that USA Football 
administers the largest flag football league in the country, 
and so, we are proponents of flag football. It isn't USA tackle 
football; it is USA Football, which is all inclusive. And so, I 
think it's important that we promote flag football as well.
    Mr. Hudson. Thank you.
    Let's go back to Mr. O'Neil. You organization is trying to 
change the culture of high school football advocating this 
limited contact, more akin to what's being used at the 
professional level. Is your testimony--or in your testimony, 
highlight the fact that only one State has adopted your 
standards so far? In light of the successful outcomes in that 
State, have others expressed interest?
    Mr. O'Neil. It's a good question, Mr. Hudson. What we need 
is more participation from the State governing bodies around 
the country. And the word is traveling. We find that when the 
State governing body gets behind it, as happened in California 
2 years ago, a piece of legislation passed there for the first 
time in any State limiting contact on the practice field.
    But they invited us out for a tour. Coach Seto of the 
Seahawks, Coach Teevens, Anthony Munoz, Warren Moon, we hit 
four cities in 2 days, and we had enormous participation 
because the CIF, which governs athletics in California, made it 
mandatory for every State--for every coach in the State. So we 
saw 1,200 coaches in 2 days. We are going to Alabama in July, 
same thing occurred there.
    A very enlightened State, an executive director who 
understands, has made our clinic, after seeing us last year, 
mandatory for every coach in the State. So we will greet a 
ballroom full of more than 1,000 coaches in Alabama on July the 
20th.
    Mr. Hudson. Great. I've got 15 seconds. Any opposition 
you've received? You want to briefly describe that?
    Mr. O'Neil. Oh, absolutely. I've dragged Coach Teevens to 
places where there were 450 coaches at a convention, and at our 
session, 20 showed up, and the other 430 were standing out in 
the hallway saying that they didn't want to hear it right now. 
Absolutely. It's not like we're having raging success. It's 
very mixed around the country, and will be until, as I say, 
until the State governing bodies at least give us a hearing and 
mandate that all the stakeholders, not just the coaches, come 
into the room and hear what we have to say and see it on video. 
When they do, we almost never fail to convert.
    Mr. Hudson. Great. Thank you.
    At this time, I'll recognize Mr. Pallone for 5 minutes for 
any questions he may have.
    Mr. Pallone. Thank you. Earlier this year, the Ivy League 
received significant press attention for their move to 
eliminate tackling during regular season practices. And the 
league now has no contact practices during the regular season, 
as well as strict rules about the amount of contact and 
practice during the spring and preseason. So I wanted to ask 
Mr. Teevens--if I'm pronouncing it correctly--you implemented 
these changes at Dartmouth several years before they were 
adopted by the Ivy League. What motivate you to reduce the 
amount of contact in your practices, and what was the initial 
reaction when you proposed those changes?
    Mr. Teevens. Well, the injury rate was the stimulus, and we 
just had too many guys going down, like what's the story, 
concussion, all that type of thing resurfacing, and it just 
struck me we can do this in a better way, watching what we did 
during research on tackling, and we started to do it. It was 
not well received. Still not well received by an awful lot of 
people. I did make a recommendation through Robin Harris at the 
Ivy level, and it was a 5-minute discussion. All of the coaches 
that played against Dartmouth, they know how we played, they 
know how effectively we tackle, and the vote was unanimous. It 
was progressive in mindset to say Hey, this is the direction we 
should travel.
    Mr. Pallone. And how have the rates of head injuries 
changed since you implemented these no-contact policies? Have 
you seen any other benefits?
    Mr. Teevens. Five years ago, I was, like, most programs in 
the country, maybe 15 to 20 during the course of the year, and 
this past season we had two--two preexisting situations, both 
young men that can no longer participate. Our defense, which 
was nationally ranked, had zero concussion this year. Spring 
practice last 2 years, if my numbers are correct, we've had 
zero in spring practice, and that's similar to concussion 
season in college football.
    Mr. Pallone. Great. In your opinion, are full contact 
practices necessary to ensure success on game day and for 
athletes' future careers?
    Mr. Teevens. No, I don't believe so. To the point of 
imminent contact, you can do everything you need to; you can 
replicate tackling styles on bags and pads and with sleds, and 
I really believe and I tried to convince high school coaches of 
this as well. You can do it at any level. I've got a 3-year-old 
grandson. I have him tackle pads off the side of the couch, and 
see he gets it. And I think that, again, crawl, walk, run, 
mindset can introduce skill sets that would be helpful down the 
road, but don't have to be practiced live that frequently.
    Mr. Pallone. Now, given the research, do you think that 
engaging in full contact practices three, four, five times a 
week bear significant risk for young athletes?
    Mr. Teevens. Without question. The more you hit, the 
greater--the greater the risk of injury. And by just 
eliminating, we've seen that, quite frankly, in all aspects of 
our game; shoulders, necks, backs, arms have diminished 
appreciably, and it's made up a better football program.
    Mr. Pallone. Well, thank you.
    I wanted to ask Mr. O'Neil. We've seen many different rule 
changes being implemented across sports, across leagues, across 
States. There has been some criticism that these rule changes 
upset the integrity of the game. What do you think about the 
recent announcement that Pop Warner is eliminating kickoffs and 
kick returns? Will that prevent brain injuries, in your 
opinion?
    Mr. O'Neil. Good question, Mr. Pallone. My reaction is this 
is Pop Warner's way of saying that grade school boys are not 
capable, physically, of playing the game the way it's designed. 
This is--they are making our argument. They are making the 
argument that these boys should be converted to flag football 
until they reach a physical maturity at 14 or 15 to play the 
game the way it's structured. We advocate no basic changes in 
the game. We also say, there will not be any further rule 
changes that we don't believe that will make the game 
noticeably less dangerous. The game is the game. We don't 
advocate any major change to it, but we do say very strongly, 
boys in grade school are not nearly prepared to play it the way 
it's designed, the way adults play it. And, therefore, both 
boys and girls ought to be playing flag football until boys 
make a transition, if they choose, to play contact in ninth 
grade.
    Mr. Pallone. So just so I understand, you're not 
recommending--you don't think any other changes would better 
protect the kids other than if they continue with the present 
play?
    Mr. O'Neil. Mr. Pallone, it won't be football if we 
continue to strip away the kick return, the punt return, the 
three-point stance, there are any number of proposals out 
there. We are opposed to all of them. We think that those are 
ways--likewise, heads-up tackling, heads-up tackling is an 
attempt to somehow sanitize the very difficult, very physical 
act of tackling. It can't be done. Tackling is tackling. Rocky 
Seto's Seahawks' tackling defines it exactly as it's done, and 
should be done, at the three levels of football where the game 
should be played. If boys can't tackle the way the technique 
was designed, they shouldn't be playing contact football; they 
should be playing flag until such point as they are ready 
physically to play.
    Mr. Pallone. I thank you.
    Mr. Hudson. I thank the gentleman. At this time, I'll 
recognize my colleague from Virginia.
    Mr. Griffith. Thank you. Thank you, Mr. Chairman.
    I do apologize. I took my jacket off and over ran to vote, 
ran back in the rain, and I got wet. So I took by jacket off. I 
do apologize for that.
    Mr. Hudson. You're forgiven.
    Mr. Griffith. Mr. O'Neil, my boys are 8 and 10. My 10-year-
old tried tackle football. When my 8-year-old was 7, he played 
flag. It's not available for him now. Have you all done some 
studies here? In all your testimony, have you done some studies 
on how many kids, because they are not ready to do tackle, 
actually drop out of the sport?
    Mr. O'Neil. It's a very--we haven't, sir, but it's a very, 
very good point. Football loses any number of good candidates 
for the fact that we throw these boys in unprepared physically 
at a young age.
    There is a sound bite--I'm now adding sound bites that I 
would like to play for you when we finish. But I have 1 minute 
of John Madden, my former colleague at CBS, the coach and 
broadcaster. He tells a story wherein his son coached ninth 
grade football at a school in California for 15 years. And John 
said to him, if you take a boy who did not play contact youth 
football, and he's a pretty good athlete, match him up against 
the boy who did play contact football through grade school, how 
long would it take the boy who did not play to catch up with 
the skills of the boy who did? Joe Madden, his son, said to 
him, One week. One week it would take him to catch up to what 
supposedly had been learned by a youth contact player those 8 
years that he took all that head trauma from age 5 to 13.
    Mr. Griffith. And I appreciate that.
    I am going to have to move on.
    Dr. Comstock, I was intrigued with your testimony about 
young women have more concussions than young men. Do you find 
that to be true? Do you have an--is that true through all age 
groups, middle school, high school, and college?
    Dr. Comstock. So in the age groups that we have, good 
surveillance data, it has been consistent, both with my data 
and other good surveillance systems, so across slightly 
different populations and the high school and collegiate age 
group. We, in the middle school and younger age group, we only 
have very small studies of like one league or one school 
district. Based on those, it appears it's also so on the 
underage groups, but we don't have national data to answer that 
question.
    Mr. Griffith. I appreciate it. I'm sorry we have some 
limited time here.
    Mr. Stenersen--I apologize for my pronunciation--U.S. 
Lacrosse has invested in the development and deployment of the 
sports first standardized coaching and officiating education 
curricula. In your testimony, you observed that properly 
trained coaches and officials are the most effective 
interventions for players' safety. Is that conclusion based, at 
least in part, on the changes you've seen in injury rates since 
deploying the curriculum?
    Mr. Stenersen. In part, yes. But it's--it's more based on 
kind of our fundamental belief that if you can't teach a sport 
correctly, and according to the rules, the outcomes are going 
to be not what you want.
    So--and I would add that part of the challenge we see that 
hasn't been mentioned yet is in youth sports such as soccer and 
lacrosse and ice hockey, I think we are seeing a significant 
privatization of the sport, which means that kids are playing 
more frequently, more games, at younger age levels. And that 
privatization in sports specialization is compounding this 
concern in our sport.
    Mr. Griffith. OK. I appreciate that. You also mention that 
one of the biggest challenges is getting youth leagues in State 
high school associations to buy in to your standards. Why do 
you think this is a challenge? If you can be quick, I would 
appreciate it.
    Mr. Stenersen. Culture and tradition.
    Mr. Griffith. OK. And I have to tell you, the good news is 
my 16-year-old daughter had a concussion this year, and they 
pulled her out for about 2 weeks. And, you know, she got it 
playing lacrosse.
    Mr. Margarucci, I've only got a minute left. Is there 
something you haven't had an opportunity to touch on that you'd 
like to? Because by the time I get a question out, the time 
would be up.
    Mr. Margarucci. No.
    Mr. Griffith. Would you agree with these folks that the 
more we can do to train folks on how to do it right and how to 
do the checks right or the hits right----
    Mr. Margarucci. Yes. We have a lot of that built into your 
coaching education, the checking progression and everything 
like that already, which we've had.
    Mr. Griffith. And do you have the same buy-in difficulties 
that Mr. Stenersen indicated he was having?
    Mr. Margarucci. Yes, to a degree. Not all high school 
associations, hockey leagues, are governed by USA Hockey, and 
so we don't have any influence there.
    Mr. Griffith. Right.
    Mr. Margarucci. So, again, there's no uniformity, 
sometimes, amongst those leagues.
    Mr. Griffith. And there is a lot of privatization, not only 
do you all have that, but Mr. Stenersen mentioned that, and my 
8-year-old is also playing youth lacrosse, and that's 
completely outside the city rec league any of the high schools 
or any of the school systems. It's a private institution.
    Listen, I came back because I thought this was an extremely 
important hearing. I appreciate all of your testimony, and 
we'll continue to work on this. And I yield back, Mr. Chairman.
    Mr. Hudson. I thank the gentleman. At this time, I'll 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. And I appreciate all of 
our witnesses being here today and having this panel of expert 
witnesses is a good opportunity to have dialogue on how we can 
further enhance the safety of youth sports.
    I would like to ask some questions about changes to rules 
governing contact, especially for kids.
    And, Dr. Gregory, you are here as a member of the USA 
Football's medical advisory committee. What can you tell us 
about the guideline changes USA Football has made to make the 
sport safer for young athletes?
    Dr. Gregory. Well, as you're probably aware, there are 
practice guidelines now in place to limit contact, which has, 
as part of the heads-up program, shown good evidence of 
decreasing injury, and that is limiting contact to 30 minutes 
per practice, no more than four practices a week, and no more 
than 2 hours in total length of practice.
    So, decreasing the number of potential hits, which has been 
shown to occur by limiting the amount of time.
    Mr. Tonko. Thank you. And it's my understanding that USA 
Football does not operate its own teams?
    Dr. Gregory. That is correct. So we can only make 
suggestions to the leagues that are underneath us. The same 
problem that all youth sports have. We want these leagues to 
follow our recommendations, but we can't enforce them.
    Mr. Tonko. So, in other words, there's--it's just a 
recommendation? There's no way to implement those guidelines?
    Dr. Gregory. There's no way to enforce it. We've got to get 
buy-in, just like what my other colleagues have talked about 
here. By showing them that it works, get buy-in from these 
youth coaches.
    Mr. Tonko. And, Dr. Gregory, have you been monitoring the 
rate of injuries, particularly head injuries since implementing 
these changes?
    Dr. Gregory. So in the three areas that we showed with the 
dataless youth football study, the Fairfax County information 
here, and in South Bend, Indiana, the programs that implemented 
the heads-up football, which is the educational proponent and 
the practice limitations, all injuries, head injuries, all went 
down in both practice and games.
    Mr. Tonko. Do you have any--do you know anything more than 
that, other than dropping in----
    Dr. Gregory. Well, I gave the numbers already, but I can 
give them to you again.
    Mr. Tonko. OK. No, just as long as the committee has them--
--
    Dr. Gregory. Yes.
    Mr. Tonko [continuing]. That will be fine.
    And we have heard from Coach Teevens about his success at 
Dartmouth in eliminating contact practices and from Mr. O'Neil 
about practice like pros advocacy for additional rule changes 
to reduce contact, particularly for young players. The whole 
Ivy League has now eliminated contact practices, and the NFL 
allows only 14 contact practices over the 18-week regular 
season.
    Dr. Talavage--did I say that correctly?
    Dr. Talavage. Talavage.
    Mr. Tonko. Talavage, I'm sorry. What do these measures, 
like reducing the number of contact practices and giving 
players longer rests between such practices do for players, in 
particular, what is the effect as it relates to the brain?
    Dr. Talavage. The more time off they have, the more 
opportunity there is for the body's restorative practices to 
repair any damage that's occurred from being hit. So the more 
time you can give them off, the less likely they are to be 
impaired, the less likely they are to be injured in the future.
    Mr. Tonko. Thank you.
    And, Dr. Gregory, given what the science is telling us, why 
has USA Football not considered stricter rules or guidelines to 
reduce or eliminate contact for young players?
    Dr. Gregory. So what I will tell you is that what has been 
demonstrated, both at Dartmouth and then high school level, is 
it's fairly new, and I would say it's very compelling, and the 
challenge is can we replicate this at the youth level without 
the resources that they have at the collegiate and high school 
level? And that's the difficulty. And, again, we can make 
recommendations; we can't enforce it. So for us, we have to 
make sure that if we make a recommendation like that, that we 
back that up by understanding that it can be implemented if we 
recommend it. And that's--that's what we need the resources to 
do.
    Mr. Tonko. And yesterday, Pop Warner announced that it 
would eliminate kickoffs and kick returns to reduce head 
injuries. It will also reduce contact practice time from 33 
percent to 25 percent.
    Dr. Talavage, do you think these measures will be effective 
at reducing head injuries for kids?
    Dr. Talavage. They are a good start. We'll say that much. 
The main issue, I think, just to tie back to one quick comment 
from before, is that eliminating one or two or three or four 
big hits per game isn't going to have a terribly substantial 
effect. I'd be more excited about the reduction in the contact 
practice time.
    Mr. Tonko. OK. So those are--those would be the first 
additional changes that you would encourage?
    Dr. Talavage. Yes.
    Mr. Tonko. Dr. Gregory, is USA Football considering similar 
measures?
    Dr. Gregory. Considering--say that again.
    Mr. Tonko. Is USA Football considering similar measures as 
those introduced by Pop Warner?
    Dr. Gregory. Well, so one of the things that's pretty clear 
is this is an evolving game, so this is definitely up for 
consideration. And rule implementations like this would be 
looked at and studied and see if--if it does, indeed, have the 
same effect to youth that it has at other levels.
    Mr. Tonko. Thank you.
    Finally, earlier this month, committee Democrats sent a 
letter to Scott Hallenbeck, executive director of USA Football, 
about how the organization is ensuring the safety of young 
football players in addressing the risk posed by both 
concussive and subconcussive hits. We have asked for a response 
by May 25th.
    Dr. Gregory, can you confirm that USA Football will provide 
the committee with a response by that date?
    Dr. Gregory. I can confirm that. Thank you.
    Mr. Hudson. Thank you.
    Mr. Tonko. With that, I yield back.
    Mr. Hudson. Thank you, sir.
    At this point, we'll recognize Ms. Clarke for 5 minutes.
    Ms. Clarke. Thank you, very much, Mr. Chairman.
    I thank our ranking member. I thank our witnesses for 
bringing your expertise before us today.
    I'd like to talk about the change in culture. As we 
approach the issue, we have to address sports culture and the 
attitude of toughness. For a long time, kids have watched their 
idols deliver the hardest hits on the field and get the most 
fights on the ice. As we make changes to play and practice, we 
also need to ensure that that permeates the culture of sports 
as well.
    Look, my first question, Mr. Teevens, is do you believe 
that players are convinced of the importance of reporting 
concussions?
    Mr. Teevens. I think they are getting there. I think it's 
incumbent upon the coaching staff to make players aware that 
it's oK for coaching staff members, says, Hey, you tough guy, 
the old school mind set, players may not respond if it's opened 
and it's oK, culture sports it, they will report.
    Ms. Clarke. OK. And do you believe that the coaches and the 
medical staffs at the higher levels of play take concussions 
seriously?
    Mr. Teevens. I think they do. I think coaching profession 
is conservative, and a lot of guys that have played less than 5 
years ago, or started coaching 5 years ago or greater, they 
grew up in a time when you didn't self-report; you didn't know 
about concussive head injury, and a lot of people teach what 
they were taught as players. That's part of the culture that 
needs to change. It's a different time.
    Ms. Clarke. There needs to be a disruption.
    Do you think that we have been successful in spreading that 
message?
    Mr. Teevens. Not as successful as we need to be, and the 
broader the better. Again, limiting the injury is--it's what 
we're all about.
    Ms. Clarke. Mr. O'Neil, the same questions. How can we 
convince players and coaches to report concussions and treat 
them seriously?
    Mr. O'Neil. Ms. Clarke, it's a great question. And I'd say 
this to you, when we do our clinics around the country, we have 
quantified the 19 cases of suspected second impact syndrome 
that you heard about earlier this morning. We tell those 
stories in detail with video of the players involved. We tell 
the stories of catastrophic injury in an effort to scare 
straight through the coaches these young boys who need this 
information.
    I show my son's concussions as an example. I showed how he 
lied about his symptoms, did everything to stay on the field. 
Only when confronted with an impact test that showed he had 
failed the cognitive efficiency index test, only then did he 
admit that, yes, he was suffering a concussion and he was going 
to have to miss 3 or 4 weeks of play.
    It is a huge problem still in high school football, and we 
think it's a subject about which we need to be direct with 
players. We tell these stories to the coaches, and we give them 
the video. We encourage the coaches to tell the players the 
story of what catastrophic injury can be in their lives if they 
don't report, self-report, and self-diagnose.
    Ms. Clarke. Many kids try to model their behavior after the 
athlete they revere. We need to ensure that the athletes at the 
highest level of play, college and pro, are sending the right 
messages about taking brain trauma seriously.
    So, Mr. Teevens and Mr. O'Neil, what can the college and 
professional athletes and leagues do in carrying that message 
forward?
    Mr. Teevens. I think the coaches would have to drive that 
message. I say frequently, unless we change the way we coach 
the game, we won't have a game to coach. And putting into 
place--we have an MVP, a mobile virtual player tackling device, 
that has been tremendous, because we now replicate a moving 
target at no risk of injury to the player tackling it. Steps 
like that.
    The players will follow the direction of the coaching 
staffs, and I think coaching to coaches is absolutely critical 
to get our message across.
    Mr. O'Neil. Ms. Clarke, what's effective for us is when we 
take these Hall of Famers around the country, Warren Moon tells 
the audience, he suffered his first concussion at the age of 7 
on a practice field in California, needlessly, not in a game, 
in a practice at the age of 7, and tells his personal story 
about hiding symptoms and then coming to a recognition later in 
his career how foolish that was.
    We take Anthony Munoz around, and he tells a story of 
playing for a coach in Cincinnati who wanted to hit and hit and 
hit every single day, even the day before games on a Saturday. 
They're hitting each other in goal lines and short yardages 
drills before a Sunday game. Then he said we had a new coach, 
and that coach took our approach, which is virtually no contact 
during the week. And he said, we won both ways, but he said I 
sure felt a lot better and my teammates did, too, in that 
second approach, which is so much more effective.
    Ms. Clarke. Any of you have any comments about what you 
think the fans should be requiring of this sport?
    Mr. Teevens. I think fans should be aware of it as well, 
and it's not gladiatorial, it's we have someone's child who is 
playing the game, and understand some of those big hits. The 
rules of the game don't dictate taking people out of play by 
force and injury. It's just get them on the ground. And if 
there is understanding that long term, people can be in 
jeopardy if we don't change the way we approach the game.
    Dr. Gregory. The other thing I would add is that the media 
which is on ESPN, the Hits of the Week, are not good hits, if 
you ask us. Right? That's what's being shown as a highlight. 
That's not the goal. We've got to change that.
    Ms. Clarke. We have to change the culture, then, that 
requires that everyone that is participating and reveres this 
game.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Hudson. I thank the gentlelady. I ask unanimous consent 
that the Institute of Medicine, National Research Council 
report entitled ``Sports-Related Concussions in Youth: 
Improving the Science, Changing the Culture'' be introduced 
into the record.
    Without objection, the document will be entered in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF02/20160513/
104914/HHRG-114-IF02-20160513-SD099.pdf.
---------------------------------------------------------------------------
    I also want to do another promotion of the briefing that 
Congressman Butterfield and I are hosting on pediatric trauma, 
May 24th. Encourage all my colleagues and any interested 
parties to attend that briefing.
    And, in conclusion, I would like to thank all of you, 
witnesses and the Members who participated in today's hearing. 
A very important issue. I think we've gained a lot of insight 
today.
    I remind Members they have 10 business days to submit 
questions for the record. I ask all witnesses to agree to 
respond promptly to those questions.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    This hearing marks the second event of the committee's 
comprehensive review of concussions. We first had a roundtable 
discussion in March that highlighted not only the gaps in our 
scientific and medical understanding of these injuries but also 
the risks they pose to all members of society. These injuries 
occur not only on the field of play or in service to the 
Nation, but also in the school yard, in auto accidents, or even 
something as simple as slipping on a patch of ice. They do not 
discriminate.
    There are no easy answers when it comes to head trauma. It 
may take time for research to provide the concrete answers the 
public demands but that is not an excuse for inaction. There 
has been tremendous progress in the last decade but we can, and 
must, do more. And this must be a collective effort as no one 
individual, group, or organization can solve this public health 
challenge.
    We are here today to examine what is being done to protect 
one the largest at-risk populations for concussions, youth 
athletes. Every year, in Michigan and across the country, tens 
of millions of children compete in youth sports. From community 
recreational teams to elite travel clubs, children have 
countless opportunities to engage in athletic competition. 
These activities provide tremendous benefits to our children, 
influencing their physical and psychological health, academic 
performance, and social well-being--both now and in the future.
    Despite these benefits, with everything we see in the press 
about concussions and the long-term effects of head injuries, 
countless parents are asking themselves, is it safe for my 
child to play sports?
    This is a difficult question to answer. To start, we know 
relatively little about the prevalence, effects, and long-term 
outcomes of concussions or head injuries in pediatric 
populations, including youth sports. This group has been 
dramatically underrepresented in existing research. Do children 
respond differently than adults? How does the developing brain 
respond? Does it heal faster or does it create long-term 
effects? These are just a few of the many questions science 
simply cannot answer at this point.
    In the absence of scientific answers, we look for 
opportunities to limit exposure to head injuries. Due to the 
nature of concussions, management of these injuries is 
difficult even in controlled settings such as pro sports where 
you have individual leagues with a limited number of teams and 
athletes. At the youth level, there are thousands of leagues, 
organizations, and clubs--making the challenge exponentially 
more difficult and harder to control. The adoption and 
enforcement of rules, policies, or education programs often 
depends on the commitment of individual leagues, teams, 
coaches, parents, and athletes.
    Some progress has occurred in recent years as a number of 
leagues and organizations are taking steps to limit contact in 
practice and games. Others are conducting outreach and 
education to improve awareness and understanding for coaches, 
parents, and athletes. Whether these efforts are effective or 
go far enough remains a question and one that we should 
continue to evaluate. Collectively, however, these efforts 
reflect a growing shift in the culture of sports regarding 
concussions and head injuries. Today's discussion is an 
important step in the right direction.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
